                   OFFICE OF JUSTICE PROGRAMS
           TECHNICAL ASSISTANCE AND TRAINING PROGRAM

                               EXECUTIVE SUMMARY

      The Office of the Inspector General has completed an audit of the
Office of Justice Programs’ (OJP’s) Technical Assistance and Training
Program (TA&T). The TA&T is the product of many OJP bureaus and
program offices and includes a wide range of funding sources, types of
services, and products. For example, the OJP’s Bureau of Justice Assistance
(BJA) provides an array of technical assistance and training programs to
provide criminal justice practitioners with information on effective programs
and practices and to address new criminal justice issues. The mission of the
OJP’s Office of Juvenile Justice and Delinquency Prevention (OJJDP) is to
strengthen the juvenile justice system by providing training, technical
assistance, and information on trends, new approaches, and innovative
techniques to juvenile courts and court personnel; law enforcement;
detention and corrections; youth service providers; and child advocacy
organizations. Grantees include universities, non-profit organizations,
states, and municipalities.

       We reviewed the OJP’s administration of $312.5 million in TA&T grant
awards . We audited 21 of the 158 TA&T grants awarded by the OJP between
fiscal year (FY) 1995 and FY 2002. These 21 grants totaled $77.7 million, or
25 percent of the $312.5 million in total TA&T grant dollars awarded.1 Our
objectives were to: (1) determine if the OJP implemented internal control
measures to ensure accurate financial reporting by grantees; and (2) assess
the OJP’s monitoring and evaluation of grant objectives.

     Most TA&T funding is awarded through discretionary grants.2
However, the OJP may determine that funding from existing block and
formula grants can be used for technical assistance.3 In addition, Congress


       1
         The overall TA&T universe is 1,145 grants totaling $1.4 billion during this time
period. However, these figures include grants that have multiple purposes. We limited our
audit to grants that were exclusively for TA&T.

       2
         Discretionary grants are awarded on a competitive basis to public and private
agencies, private non-profit organizations, and universities.

       3
         Block grant funding is given to a state, and then allocated to local organizations
through sub-grants. Formula grants are awarded to state and local governments based on
a pre-determined formula using, for example, a jurisdiction’s crime rate, population, or
other factors.




                                            -   i-
may legislate that funds from block and formula grants be set aside for
specific TA&T programs.

      TA&T grants are designed in accordance with the specific mandates
associated with each OJP bureau or program office, and can be customized
to meet the specific needs of a state or local community. TA&T grants can
also address a broad array of topics, such as providing training and technical
assistance to drug courts, paid work and job skills training programs and
develop standards and training for School Resource Officers (See Appendices
V and VI for examples).

      Although many OJP bureaus and program offices awarded TA&T
grants, the OJJDP and the BJA awarded 92.5 percent of the total TA&T grant
dollars. Therefore, we focused our audit on the grant monitoring efforts of
these two bureaus.

      Our audit of various headquarters functions at the OJP and audits of
21 individual TA&T grants disclosed the following deficiencies in the OJP’s
administration of TA&T grants:

       •   Program and financial monitoring by BJA and OJJDP were not
           conducted consistently, and there was little coordination between
           the two areas.

       •   We identified approximately $5.2 million in questioned costs
           and funds that could be put to better use.4 In addition, a
           formal investigation was launched, based on our audit results,
           to examine one grantee’s expenditures and business
           practices.

       •   OJP grant managers did not ensure that all required Financial
           Status Reports and Progress Reports were submitted timely
           and accurately, and other monitoring and closeout
           requirements were not being adhered to.

       •   Communication between grantees and grant managers was not
           documented in accordance with OJP requirements.



       4
          The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs and funds to better use. However, not all findings are
dollar-related. See Appendices II, III, and IV for a breakdown of our dollar-related findings
and for definitions of questioned costs and fund to bet ter use.




                                             - ii-
     •   The OJP did not play a role in developing grantees’ performance or
         outcome measures, nor did it have specific requirements that
         grantees could follow in developing such measures. As a result, we
         were unable to assess the impact of the grants to determine
         whether they were achieving their intended purposes.

     •   While the OJP has mandated that the Grants Management System
         (GMS) be used by its various components, several of the modules
         of the GMS were not fully operational during our audit period. For
         example, the Financial Status Reports were not required to be filed
         electronically until April 2004. The enhanced GMS, which will
         include all modules to manage grants, is scheduled to be fully
         operational by September 30, 2004.

      Based on these findings, we recommend that the OJP ensure that
grant managers receive annual training to ensure that they are
knowledgeable of OJP’s requirements governing the submission of timely
and accurate reports, allowable costs, grant monitoring requirements, and
grant closeout procedures. We also recommend that the OJP ensure the
complete implementation of its automated system for managing grants. In
addition, we recommend that the OJP bureaus work with grantees to
develop performance or outcome measures to assess the effectiveness of
TA&T grants.

     The details of our work are discussed in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are contained in Appendix I.




                                     -iii-
                                    TABLE OF CONTENTS

                                                                                              Page

INTRODUCTION.............................................................................. 1

      Background .................................................................................. 1
      OJP Reorganization........................................................................ 2
      The OJP’s Technical Assistance and Training Program .......................... 4
      The Office of Juvenile Justice and Delinquency Prevention .................... 6
      The Bureau of Justice Assistance...................................................... 7
      Grant Monitoring........................................................................... 8
      Prior Reviews ............................................................................... 9


FINDINGS AND RECOMMENDATIONS............................................. 10

      1.   GRANT MONITORING .......................................................... 10

           The OJP’s Monitoring of 21 Selected Grants................................ 11
           Results of the 21 Grant Audits ................................................. 13
           Grant Expenditures................................................................ 16
           Financial Status and Progress Reports....................................... 17
           Recommendations ................................................................. 20

      2.   PROGRAM PERFORMANCE ................................................... 21

           Grantee Evaluation Methods .................................................... 21
           The OJP’s Program Evaluation Efforts........................................ 23
           Recommendation .................................................................. 24


STATEMENT ON MANAGEMENT CONTROLS..................................... 25

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 26

APPENDICES:

I.         OBJECTIVES, SCOPE, AND METHODOLOGY ................................ 27

II.        SUMMARY OF DOLLAR-RELATED FINDINGS................................ 29

III.       TECHNICAL ASSISTANCE AND TRAINING GRANTS
           SUMMARY OF AUDIT FINDINGS – BJA....................................... 30
IV.     TECHNICAL ASSISTANCE AND TRAINING GRANTS
        SUMMARY OF AUDIT FINDINGS – OJJDP ................................... 32

V.      TECHNICAL ASSISTANCE AND TRAINING GRANTS
        SUMMARY OF PERFORMANCE MEASURES – BJA ......................... 36

VI.     TECHNICAL ASSISTANCE AND TRAINING GRANTS
        SUMMARY OF PERFORMANCE MEASURES – OJJDP ...................... 39

VII.    DESCRIPTIONS OF THE OFFICE OF JUSTICE PROGRAMS’
        BUREAUS, PROGRAM OFFICES, AND SUPPORT OFFICES............... 43

VIII.   DESCRIPTIONS OF MAJOR GRANTS AWARDED
        BY THE OFFICE OF JUSTICE PROGRAMS .................................... 46

IX.     ACRONYMS AND ABBREVIATIONS............................................ 60

X.      OFFICE OF JUSTICE PROGRAMS TECHNICAL ASSISTANCE
        AND TRAINING GRANTS AUDITED – BJA ................................... 61

XI.     OFFICE OF JUSTICE PROGRAMS TECHNICAL ASSISTANCE
        AND TRAINING GRANTS AUDITED – OJJDP ................................ 62

XII.    ADDITIONAL DETAILS ON GRANT-MONITORING ACTIVITIES ........ 63

XIII.   GRANTEE RESPONSE ............................................................. 67

XIV.    OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
        ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
        TO CLOSE THE REPORT.......................................................... 79
                  OFFICE OF JUSTICE PROGRAMS
          TECHNICAL ASSISTANCE AND TRAINING PROGRAM

                              INTRODUCTION

      The Office of the Inspector General (OIG) has completed an audit of
the Office of Justice Programs’ (OJP’s) Technical Assistance and Training
Program (TA&T). The objectives of the audit were to: (1) determine if the
OJP implemented internal control measures to ensure accurate financial
reporting by grantees; and (2) assess the OJP’s monitoring and evaluation of
grant objectives. Our audit included an audit of various headquarters
functions at the OJP, and audits of 21 individual TA&T grants . We issued
separate reports on 20 of the 21 grant audits. One grant report has not
been issued yet because the grantee is the subject of an ongoing OIG
investigation. This report consolidates the principal findings of the 21 grant
audits with results of our work at the OJP headquarters.

Background

       The OJP manages the Department of Justice’s multi-faceted grant
program. The OJP reported that since its inception in 1984, it has awarded
more than 80,000 grants totaling more than $39 billion, for a wide variety of
programs to prevent and control crime (See Appendix VIII for details). For
fiscal year (FY) 2004, the OJP had a budget of $3.3 billion.

      The OJP is led by the Assistant Attorney General (AAG) for Justice
Programs, with a senior management team comprised of the Deputy AAG
and five bureau heads. The OJP’s five bureaus and two program offices are
the principal grant-making entities within the OJP. The five bureaus are:
(1) the Bureau of Justice Assistance (BJA); (2) the Office of Juvenile Justice
and Delinquency Prevention (OJJDP); (3) the Bureau of Justice Statistics
(BJS); (4) the National Institute of Justice (NIJ); and (5) the Office for
Victims of Crime (OVC). The two program offices include the Office of the
Police Corps and Law Enforcement Education and the Community Capacity
Development Office.

      In addition to the bureaus and program offices, nine other OJP offices
provide agency-wide support. They are the Office for Civil Rights; Office of
the General Counsel; Office of Communications; Office of the Chief
Information Officer; and Office of Management and Administration (OMA).
Under the OMA are the Office of Administration, Office of Budget and
Management Services, Office of the Comptroller, and the Equal Opportunity
Office.



                                     -1-
      Programs developed and funded by OJP bureaus and offices seek to
control drug abuse and trafficking; reduce and prevent crime; rehabilitate
neighborhoods; improve the administration of justice; meet the needs of
crime victims; and address problems such as gang violence, prison
overcrowding, juvenile crime, and white-collar crime.

      Generally, the OJP bureaus and program offices award two types of
grants - formula grants and discretionary grants. Formula grants are
awarded to state and local governments based on a pre-determined formula
using, for example, a jurisdiction's crime rate, population, or other such
factors. The states are generally required to pass through a significant
portion of the formula awards to local agencies and other organizations in
the form of sub-grants. Formula grant programs in areas such as drug
control, juvenile justice, victims’ compensation, and victims’ assistance are
administered by state agencies designated by each state's governor. Block
grant funding is given to a state by the federal government to run programs
within defined guidelines. The states generally allocate these funds to local
organizations through sub-grants.

       Discretionary grants are awarded on a competitive basis to public and
private agencies, private non-profit organizations , and universities.
However, certain discretionary grants are awarded on a non-competitive
basis, as required by congressionally earmarked funding. Discretionary
grant funds are announced in the Federal Register or through program
solicitations on OJP websites. Grant applications are made directly to the
OJP’s sponsoring bureau or program office. The bureaus and program
offices, together with OJP’s Office of the Comptroller, are responsible for
awarding and monitoring discretionary grants to ensure that they are being
implemented as intended, responsive to grant goals and objectives, and
compliant with statutory regulations and other policy guidelines.

OJP Reorganization

       In 2002, Congress approved a reorganization plan for the OJP. The
plan sought to: (a) improve responsiveness, assistance, and accountability
to all customers; (b) eliminate duplication and overlap; (c) ensure
measurable grant and program outcomes; and (d) enhance communication,
cooperation, coordination, and efficiency. The plan had eight objectives:

     •   The OJP should have a strategic plan that reflects statutory
         requirements and the mission and goals of the President and the
         Attorney General.




                                    -2-
       •   The statutes governing the OJP bureaus and program offices should
           be amended to provide that all authority resides in the Attorney
           General.

       •   Management policies and procedures should be standardized
           throughout the OJP.

       •   An OJP-wide grants management system should be instituted.

       •   The OJP should be more responsive to the needs and questions of
           grantees.

       •   Centralized communication should be established at the OJP.

       •   Coordination of legislative, statutory, and regulatory activities and
           reviews should be improved.

       •   The OJP should consolidate and coordinate currently overlapping
           functions.

      To accomplish the eight objectives, the OJP planned to implement the
restructuring in phases. The reorganization left the OJP’s five bureaus
intact, established two program offices, transferred certain offices within the
OJP, combined four support offices into a new Office of Management and
Administration, and transferred two offices out of the OJP.5

       The OJP believes that its new organizational structure, some of which
has already been implemented, should improve the efficiency and
effectiveness of the grant management program. Specifically, it believes the
reduction and realignment of program and support offices should improve
communication and cooperation among the OJP components.




       5
          As a result of congressional legislation in 2002, the name of the Violence Against
Women Office was changed to the Office on Violence Against Women. The Office now
reports to the Attorney General through the Office of the Associate Attorney General. The
Office of Domestic Preparedness was transferred to the Department of Homeland Security.




                                            -3-
      The OJP’s current organizational structure is shown on the following
chart.6


                   Organization of the Office Of Justice Programs 7

                                                          UNITED STATES DEPARTMENT OF
                                                                     JUSTICE
                                                                ATTORNEY GENERAL
                                                             DEPUTY ATTORNEY GENERAL
                                                         ASSOCIATE ATTORNEY GENERAL




                                                          OFFICE OF JUSTICE PROGRAMS
                                                           ASSISTANT ATTORNEY GENERAL




     BUREAU OF JUST ICE           BUREAU OF       NATIONAL INSTITUTE          OFFICE OF            OFFICE FOR
     ASSISTANCE                    JUSTICE        OF JUSTICE                  JUVENILE JUSTICE     VICTIMS OF CRIME
                                  STATISTICS                                  AND DELINQUENCY
                                                                              PREVENTION


                                                                                                   AMERICAN INDIAN
                                                                                                   AND ALASKAN NATIVE
                                                  OFFCE OF THE                 COMMUNITY
                                                                                                   DESK
                                                  POLICE CORPS AND             CAPACITY
                                                  LAW ENFORCEMENT              DEVELOPMENT
                                                  EDUCATION                    OFFICE
                                                                                                   OFFICE OF
                                                                                                   WEED AND SEED




   OFFICE FOR         OFFICE OF         OFFICE OF              CHIEF              OFFICE OF          EQUAL
   CIVIL RIGHTS       GENERAL           COMMUNICATIONS         INFORMATION        MANAGEMENT AND     EMPLOYMENT
                      COUNSEL                                  OFFICER            ADMINISTRATION     OPPORTUNITY
                                                                                                     OFFICE




        Source: Office of Justice Programs



The OJP’s Technical Assistance and Training Program

      One of the OJP’s major functions is to “implement national and multi-
state programs, provide technical assistance and training, and establish
demonstration programs to assist state, local, and tribal governments and
community groups in: reducing crime; enforcing state and local drug laws;
and improving the function of the criminal justice system.”8


        6
        For a description of the OJP’s bureaus, program offices, and support offices, see
Appendix VII.

        7
            Effective March 1, 2003.

        8
            Department of Justice: Organization, Mission and Functions Manual, March 2004.




                                                          -4-
      During FY 2003, the OJP awarded $312.5 million in grants exclusively
for TA&T programs.9 As of April 28, 2004, the OJP had awarded
$126.9 million in TA&T grants for FY 2004. Funding for such grants
generally is awarded through discretionary grants. However, the OJP may
determine, under certain conditions, that funding for existing block and
formula grants can be used for TA&T programs. Congress also may
mandate that funds from block and formula grants be set aside for TA&T
programs.

      TA&T grants are designed in accordance with the specific mandates
associated with each bureau or program office, and can be customized to
meet the specific needs of a state or local community. TA&T grants can also
address a variety of topics. For example:

       •    The BJA provides a wide array of training and technical assistance
            programs to provide criminal justice practitioners with information
            on effective programs and practices, and to address new criminal
            justice issues.

       •    The OJJDP seeks to strengthen the essential components of the
            juvenile justice system by providing training, technical assistance,
            and information on trends, new approaches, and innovative
            techniques to courts; court personnel; law enforcement; detention
            and corrections; youth service providers; and child advocacy
            organizations.

       •    The Office of Weed and Seed1 0 provides training and technical
            assistance to communities in an attempt to strengthen program
            implementation1 1 and strategy development, as well as to increase
            information sharing among the sites nationwide.

       •    The OVC’s training and technical assistance activities are intended
            to expand and enhance the coordination and delivery of services to
            crime victims; improve the criminal justice and social services


       9
         This represented approximately 22 percent of the $1.4 billion of all grants that
included an aspect of TA&T. While the universe included grants that were awarded for
multiple purposes, our audit focused on grants that were awarded solely for TA&T projects.

       10
            This office is located within the Community Capacity Development Office.

       11
          The Weed and Seed Program seeks to prevent and reduce violent crime in
targeted neighborhoods. The program proposes to “weed” out crime in these
neighborhoods and “seed” them with a variety of programs to prevent crime from recurring.




                                             -5-
                                     system response to victims of crime; and support the development
                                     and distribution of policies, procedures, and protocols in the
                                     treatment and handling of crime victims by Native American tribes,
                                     state and local governments, and private non-profit organizations.

      Because the OJJDP and the BJA awarded $289 million, or 92.5 percent
of the $312.5 million in TA&T grants during FY 2003, our audit focused on
the administration and evaluation of TA&T grants by those two bureaus.



                                       Percentage of Fiscal Year 2003 Technical Assistance and Training
                                                            Dollars by OJP Bureau


                                   70.00%
                                             64.39%

                                   60.00%


                                   50.00%
     Percentage of Grant Dollars




                                   40.00%
                                                                                                          Dollar %
                                   30.00%               28.09%


                                   20.00%


                                   10.00%
                                                                    3.06%       2.97%
                                                                                            1.49%
                                    0.00%
                                             OJJDP       BJA         BJS        OVC        EOWS
                                                                   Bureaus


               Source: The Office of Justice Programs’ Office of Budget and Management Services



The Office of Juvenile Justice and Delinquency Prevention

       The OJJDP supports states, local communities, and tribal jurisdictions
in their efforts to develop and implement effective programs for juveniles.
According to OJJDP, it also strives to enable the juvenile justice system to
better protect public safety, hold offenders accountable, and provide services
tailored to the needs of youth and their families.

        The OJJDP sponsors numerous research, program, and training
initiatives; develops priorities and goals, and sets policies to guide federal
juvenile justice issues; disseminates information about juvenile justice


                                                                    -6-
issues; and awards funds to states to support local programming nationwide
through its four organizational components. To carry out its mission, the
OJJDP:

      •   Analyzes the training needs of professionals and volunteers working
          in the juvenile justice system, and develops and implements
          curriculums to meet these needs ;

      •   Conducts training programs and technical assistance for federal,
          state, and local governments; private agencies; professionals;
          volunteers; and othe rs who serve the juvenile justice system,
          including law enforcement, the judiciary, corrections, education,
          and community organizations ; and

      •   Provides needs assessments for community planning concerning
          gang and drug problems in order to develop effective intervention
          strategies.

The Bureau of Justice Assistance

       The BJA’s mission is to provide leadership and assistance in support of
local criminal justice strategies to achieve safe communities. According to
BJA, its overall goals are to: (1) reduce and prevent crime, violence, and
drug abuse; and (2) improve the functioning of the criminal justice system.
To achieve these goals, BJA programs emphasize enhanced coordination and
cooperation of federal, state, and local efforts. The BJA's objectives in
support of these goals are to:

      •   Encourage the development and implementation of comprehensive
          strategies to reduce and prevent crime and violence;

      •   Encourage the active participation of community organizations and
          citizens in efforts to prevent crime, drug abuse, and violence;

      •   Provide technical assistance and training in support of efforts to
          prevent crime, drug abuse, and violence at the national, state, and
          local levels;

      •   Reduce the availability of illegal weapons and develop strategies to
          address violence in our communities;

      •   Enhance the capacity of law enforcement agencies to reduce crime;




                                     -7-
      •    Improve the effectiveness and efficiency of all aspects of the
           adjudication process, including indigent defense services;

      •    Assist states in freeing prison space for serious and violent
           offenders through the design and implementation of effective
           correctional options for non-violent offenders;

      •    Enhance the ability of criminal justice agencies to access and use
           new information technologies; and

      •    Encourage and support evaluation of the effectiveness of funded
           programs and dissemination of program results.

       The BJA has three primary components: Policy, Programs, and
Planning. The Policy Office provides national leadership in criminal justice
policy, training, and technical assistance to further the administration of
justice. It also acts as a liaison to national organizations that partner with
the BJA to set policy and help disseminate information on best and
promising practices. The Programs Office coordinates and administers all
state and local grant programs and acts as the BJA's direct line of
communication to states, territories, and tribal governments by providing
assistance and coordinating resources. The Planning Office coordinates the
planning, communications, and budget formulation and execution; provides
overall BJA-wide coordination; and supports streamlining efforts.

Grant Monitoring

     The OJP’s Office of the Comptroller (OC) and program managers in
each of the five bureaus have grant-monitoring responsibilities. The three
general categories of monitoring activities are:1 2

      Performance. This type of monitoring addresses the content and
      substance of the program. It is a qualitative review to determine
      grant performance, innovation, and contributions to the field. It
      assesses whether grant activities are consistent with the
      implementation plan, responsive to grant goals and objectives, and
      compliant with statutory regulations and other policy guidelines.
      Performance monitoring also involves assessing technical assistance
      needs and observing implementation of projects.




      12
           See Appendix XII for additional details on grant-monitoring activities.




                                             -8-
      Compliance. This type of monitoring is coordinated between grant
      managers and the OC and involves administrative monitoring activities
      such as addressing compliance with the grant terms and conditions,
      reporting requirements, and completeness of documentation in the
      official grant file.

      Financial. This type of monitoring is conducted by the OC but also
      involves coordination with the grant managers. It ensures compliance
      with financial gui delines and general accounting practices, and
      provides technical assistance to grantees on financial issues. The
      fiscal management of grant expenditures is reviewed as well.

Prior Reviews

      Two prior reports by the Government Accountability Office (GAO)
reviewed the OJP’s grant-monitoring activities:

      •   Grants Management: Despite Efforts to Improve Weed and Seed
          Program Management, Challenges Remain, GAO-04-245, March
          2004.

      •   Juvenile Justice: Better Documentation of Discretionary Grant
          Monitoring is Needed, GAO-02-65, October 2001.

      Although these reports were specific to bureaus within the OJP, they
contained findings similar to those of our audit, such as:

  •   Monitoring activities are insufficiently performed by grant managers;

  •   Management cannot rely on supervisory oversight of grant managers
      to ensure that monitoring is being performed as required; the
      requirements as stated in the staff performance work plans are too
      general to provide a means for assessing the monitoring activities of
      the grant managers;

  •   Some grant files did not contain the required closeout materials;

  •   Outcome performance measures had not been developed to track
      progress toward accomplishment of program goals.




                                    -9-
                      FINDINGS AND RECOMMENDATIONS

       1.     GRANT MONITORING

              Our audits of 21 TA&T grants disclosed weaknesses in the OJP’s
              monitoring efforts. Grantees were reimbursed for unallowable
              and unsupported costs. OJP grant managers did not ensure that
              all required Financial Status Reports and Progress Reports were
              submitted timely and other monitoring and closeout
              requirements were not observed. In total, we identified
              approximately $5.2 million in questioned costs and funds that
              could be put to better use of the nearly $78 million in grants
              examined.1 3 We attribute these weaknesses to: (1) the lack of
              training for OJP grant managers in the areas of timely and
              accurate report submission, allowable costs, grant monitoring
              and grant closeout procedures, and (2) the OJP’s automated
              system for grant management not functioning at full capacity.
              In addition, a criminal investigation was initiated by the OIG,
              based on our audit results, to examine the expenditures and
              business practices of one grantee.

      The OJP has awarded some grants strictly for TA&T purposes and
others that combined TA&T with other objectives. Our audits examined
only grants that were exclusively for TA&T; the universe of such grants
included 158 grants totaling $312.5 million. Because the BJA and the
OJJDP awarded 92.5 percent of the total amount, or $289 million, we
concentrated our audit on grants awarded by those two bureaus.

       We judgmentally selected 21 grants for audit, totaling $77.7 million
or 25 percent of the universe of funding.1 4 Our audit sample included
10 BJA grants totaling $28.1 million and 11 OJJDP grants totaling
$49.6 million with grant award dates ranging from FY 1995 to FY 2002.
We examined the monitoring efforts of the OJP and the affected bureaus
and concluded that, for all of the grants in our sample, those monitoring
efforts were deficient.


       13
           See Appendices II, III, and IV for a breakdown of our dollar-related findings and
for definitions of questioned costs and funds to better use.

       14
          Our criteria for selection were: (a) the grant was awarded solely for the purpose of
providing TA&T; (b) the awarding bureau was either the BJA or the OJJDP; (c) the grant
amount was over $1 million; (d) the sample represented a range of grant periods; and
(e) geographic distribution.




                                           - 10 -
The OJP’s Monitoring of 21 Selected Grants

      Grant monitoring is an essential management tool to ensure that
grantees are properly expending funds and that the objectives of the grant
program are being implemented. Based on the results of our 21 grant
audits, we concluded that weaknesses in the OJP’s monitoring had permitted
a wide range of discrepancies to occur among grantees. In fact, for the
21 grants that we audited, grant manager performed site visits for only
8 grantees.

      One weakness was the lack of documentation of monitoring. We
reviewed the program manager’s grant files for each of the 21 grants that
were audited. The grant files generally contained monitoring plans but the
grant managers did not consistently follow OJP requirements and
document their monitoring efforts. For the closed grants in our sample,
one did not contain documentation showing compliance with closeout
procedures.1 5 According to the OJP Grant Managers Manual, the grant
managers are to notify the grantee of closeout procedures 30 to 60 days
before the end of the grant. However, the grant files that we reviewed did
not contain any evidence that this requirement was fulfilled.

       According to the OJP Grant Managers Manual, the bureau or program
office and the Office of the Comptroller (OC) should coordinate activities
throughout the monitoring process by preparing an annual monitoring plan,
scheduling site visits, and conducting “team monitoring” or joint site visits.
However, when we reviewed both the OC’s grant files and the grant
managers’ files, we found little evidence that such coordination actually
occurs. In addition, our interviews with the grant managers disclosed that
except for the notification letter they receive when the OC schedules a site
visit for financial monitoring, there is very little coordination between the
program offices and the OC.

      Despite the lack of evidence that grant managers were complying fully
with the established monitoring plans, we did find that some grant
monitoring occurred. For example, the files contained evidence that
communication occurred between grantees and grant managers in the form

       15
           Closeout of a grant is a process by which the OJP determines that the grantee and
the OJP have completed all applicable administrative actions and all required work on the
project. Upon expiration of a grant, the OJP grant manager and the OC are responsible for
timely and proper closing of the grant. The grantee whose files did not contain
documentation of compliance with closeout procedures is the Search Group, Inc. The files
for three additional grantees did not contain closeout documentation but the grantees were
subsequently awarded grant extensions.




                                          - 11 -
of reports, faxes and letters, and oral and e-mail communications on specific
issues and problems or requests for information. However, much of the
communication between grantees and grant managers was not documented
in accordance with OJP requirements.

      The potential adverse effects of the weaknesses in the OJP’s
monitoring and oversight of grantees are demonstrated in one particular
audit. We found that the grantee’s management of grant funds was
inadequate, the grantee maintained poor accounting records, and the
grantee generally failed to exercise oversight over the sub-grantees. In
addition, the grantee appeared to lack the requisite knowledge to
administer the grant and to train other organizations as required by the
terms of the grant. Examples of findings from this grant audit include:1 6

       •    The grantee conducted prohibited lobbying activities using grant
            funds.

       •    One of the grantee’s selection factors for sub-grantees was the
            connection between the sub-grantees and members of Congress,
            even though the sub-grants were supposed to be awarded
            competitively.

       •    The grantee billed the OJP for salary costs never paid to
            employees.

       •    Although the grantee budgeted for travel and staff expenses for
            site visits to its 36 sub-grantees, it did not adequately perform
            this task. We found that 67 percent of the site visits conducted
            were made to 6 sub-grantees in the grantee’s local area and
            6 other sub-grantees were never visited.

       •    The grantee charged unallowable costs to the grant, such as hotel
            in-room movie rentals, taxi cabs to restaurants, excessive
            telephone usage ($500 over a 2-day period), and, in one case, the
            replacement cost for a lost cell phone owned by the daughter of
            the project director.

       •    The grantee charged social gatherings such as a Christmas party
            to the grant, and labeled a sunset cruise on a yacht as a training

       16
         The results of our audit of this BJA grant caused us to question the entire grant
($3,162,580 over the life of the grant, April 6, 2000, through December 31, 2003),
prompted an investigation by the OIG Investigations Division, and resulted in a
suspension of grant funding by the OJP.




                                           - 12 -
          meeting for reimbursement purposes; in addition, alcohol was
          served at both the Christmas party and on the cruise.

      •   The grantee failed to properly monitor sub-grantees, maintain
          appropriate documentation, and take action to recover funds
          when sub-grantees failed to perform.

      •   The grantee’s files were in complete disarray.

      In our opinion, this grantee exhibited significant internal control
weaknesses and poor fiscal management, and did not effectively or
adequately manage the grant. We discussed this grantee with BJA officials
and learned that they had not conducted a site visit during at least the past
ten years, nor had the OC conducted a financial review of the grantee
during the same period. Further, the BJA officials stated that they
assumed the grantee was knowledgeable of grant requirements because,
“they have been receiving grants for a long time.”

      In addition to the preceding grantee’s poor grant management and
oversight efforts, we found that BJA had a general lack of awareness
related to the act ions of other sub-grantees.

      •   In one instance, after we learned that a significant number of
          supporting documents were missing for a sub-grantee, we found
          that the executive director of that organization had recently been
          terminated for malfeasance, including destruction or removal of
          accounting and administrative records. While the grantee was
          aware of the termination, it did not take action to obtain
          supporting documentation for the sub-grantee’s expenditures.
          The grantee was aware of problems surrounding this particular
          sub-grantee, but failed to provide adequate oversight.

      •   In another instance involving alleged embezzlement by a sub-
          grantee, BJA failed to follow-up to determine whether grant funds
          were at risk after it was notified of the alleged embezzlement.

Results of the 21 Grant Audits

      We performed the 21 individual grant audits to determine whether
reimbursements for costs claimed under the grants were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the grants. The audits resulted in 8 BJA
dollar-related findings and $3.2 million in related questioned costs, and 26
OJJDP dollar-related findings with questioned costs and funds that could be


                                     - 13 -
put to better use amounting to $2 million. Summaries of those questioned
costs and findings are shown on the following tables (See Appendices III and
IV for additional details).


        Summary of Questioned Costs and Findings – BJA Grants
                                                                                       Number
                                                                                      of Dollar-
                                                         Award        Questioned       Related
            Grantee/Grant Number                         Amount        Costs1 7        Findings
American Prosecutors’ Research Institute
                                                     $    2,061,559                       0
(2000-PP-CX-K001)
Search Group, Inc. (1999-MU-MU-0005)                      2,500,000    $   29,602         2
National Council of Juvenile & Family Court
                                                          2,904,655                       0
Judges (98-MU-VX-K016)
National American Indian Court Judges
                                                          1,442,112        31,921         4
Association (2000-IC-VX-0026)
Fund for the City of New York (98- DC-VX-                 1,839,269                       0
K007)
Doe Fund, Inc. (2001-DD- BX-0055)                         1,897,800        24,832         1
Grantee’s name withheld due to ongoing
                                                                                         11 8
investigation.                                            3,162,580     3,162,580
Strategic Information Technology Center
                                                                                          0
(University of Arkansas #1) (1999-LD-VX-                  6,700,000
0001)
School Violence Resource Center (University
                                                                                          0
of Arkansas #2) (2000- DD-VX-0026)                        3,995,600
Inter-Tribal Integrated Justice Pilot Project
                                                                                          0
(University of Arkansas #3) (2001-LD-BX-                  1,562,900
K005)


Subtotal – BJA                                 $28,066,475            $3,248,935          8
 Source: Office of the Inspector General Grant Audit Reports




       17
          Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

       18
           The number of dollar-related findings is not yet final given the ongoing
investigation.




                                                - 14 -
      Summary of Questioned Costs and Findings – OJJDP Grants
                                                                 Questioned       Number
                                                                  Costs and      of Dollar-
                                                 Award            Funds to        Related
        Grantee/Grant Number                     Amount          Better Use1 9    Findings
National Center for Missing and Exploited
Children (2000-MC-CX-K021)                     $ 10,993,363                          0
Development Services Group, Inc.
(1999-JB-VX-K001)                                    5,377,201                       0
Florida Atlantic University (95-JN-FX-0024)          2,018,869   $    199,221        4
                                                                 (FBU) 20,419        1
Boys and Girls Clubs of America
(98-JN-FX-0007)                                      9,275,000         437,885       5
Constitutional Rights Foundation
(2001-JS-FX-008)                                     1,066,400                       0
National Court Appointed Special Advocate
Association (2002-CH-BX-K001)                        3,823,500                       0
Children’s Advocacy Center for the Pikes
Peak Region (2001-MU-MU-K002)                        1,124,343          17,975       3
Suffolk University (1999-JS-FX-0001)                 5,060,685         25,279        2
                                                                 (FBU) 68,905        1
Children’s Hospital (2000-CI-FX-K001)                1,286,115       351,484         3
Fox Valley Technical College #1
(98-MC-CX-K010)                                      7,263,359         777,090       3
Fox Valley Technical College #2
(98-MC-CX-K003)                                      2,298,701          15,768       4


Subtotal – OJJDP                             $ 49,587,536         $ 1,914,026        26
Total BJA and OJJDP Questioned Costs
and Funds to Better Use                      $ 77,654,011         $ 5,162,961        34
 Source: Office of the Inspector General Grant Audit Reports




       19
       Funds to Better Use are future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations.




                                            - 15 -
Grant Expenditures

      We found many violations of essential grant and accounting
requirements in our audits of the 21 grants (See Appendix II for additional
details). For example:

       •    Eight grantees claimed and were reimbursed for costs that were not
            supported by their accounting records ($1,534,649);

       •    Two grantees claimed and were reimbursed for expenditures that
            were not included in the approved grant budget ($178,405);

       •    Five grantees claimed and were reimbursed for costs that were not
            allowed under the grant ($123,322);

       •    Suffolk University had program income of $68,905 that was not
            used to reduce future draw downs or returned to the federal
            government;

       •    Children’s Hospital drew down excess funds ($30,595) and
            transferred excessive funds between budget categories without
            written approval from the OJP ($59,903);

      Our 21 grant audits also resulted in a number of significant non-dollar-
related findings .2 0 For example:

       •    The Fund for the City of New York incorrectly budgeted certain
            costs, e.g., compensated employee leave;

       •    The internal controls over authorization and approval of grant
            expenditures at the Doe Fund, Inc. were inadequate; and

       •    The University of Arkansas did not maintain complete and accurate
            inventory records for property purchased under grants to its
            Strategic Information Technology Center and its Inter-Tribal
            Integrated Pilot Justice Project.

      However, in our judgment the most significant non-dollar-related
findings involved the timeliness and accuracy of grantee Financial Status and



       20
         See Appendix III for details regarding the following grantees: Fund for the City of
New York; Doe Fund, Inc.; and University of Arkansas grants #1 and #3.




                                           - 16 -
Progress Reports. A summary of findings pertaining to this area is described
in the following section.

Financial Status and Progress Reports

      Financial Status Reports – According to the OJP Financial Guide, each
grantee is required to submit a Financial Status Report (FSR) to the
awarding agency within 45 days of the end of each calendar quarter. We
reviewed the FSRs throughout the grant periods for the audited grants and
determined that 10 of the grantees submitted a total of 22 late and
10 inaccurate quarterly FSRs. The untimely reports were submitted as many
as 60 days after the due date.




                                   - 17 -
           Untimely and/or Inaccurate Financial Status Reports
                                              Number of         Number      Number of
                                               Reports          of Late     Inaccurate
                  Grantee                      Required         Reports      Reports
 National American Indian Court Judges
 Association                                            13             6               0

 Fund for the City of New York                          18             3               0
 Doe Fund, Inc.                                          7             2               0
 School Violence Resource Center
 (University of Arkansas)                               12             0               2

 Florida Atlantic University                            32             1             02 1
 Boys and Girls Clubs of America                        22             0               1
 Children’s Advocacy Center for the
 Pikes Peak Region                                      10             1               7

 Suffolk University                                     18             2               0
 Children’s Hospital                                    14           22 2              0
 Grantee’s name withheld due to
 ongoing investigation                                  12             5               0

 Total                                                158            22              10
  Source: Office of the Inspector General Grant Audit Reports



      Progress Reports – According to the OJP Financial Guide, Progress
Reports must be submitted within 30 days after the end of the reporting
periods (June 30 and December 31). Progress Reports are supposed to
describe in a narrative fashion information relevant to the performance of a
plan, program, or project. We reviewed the Progress Reports throughout
the grant periods for the 21 audited grants and determined that 13 grantees
submitted a total of 43 reports late. The untimely reports were submitted as
many as 170 days after the due date. In addition, 10 reports for these
grantees coul d not be located.

      21
          We determined that the grantee failed to report program income received from the
grant on the FSRs as required. However, we could not determine with certainty when the
grantee should have started to report program income.

      22
           The untimely reports were submitted 42 and 57 days after the due date. The OJP
failed to date-stamp 11 of the reports when received; consequently, we could not determine
the timeliness of their submission.




                                         - 18 -
                       Untimely or Missing Progress Reports
                                                     Number of      Number        Number of
                                                      Reports       of Late        Missing
                     Grantee                         Required       Reports        Reports
National Council of Juvenile and Family
Court Judges                                                  10           42 3               0

National American Indian Court Judges
Association                                                    7             2                1

Fund for the City of New York                                  9           32 4               1
Doe Fund, Inc.                                                 4             3                0
Grantee’s name withheld due to ongoing
investigation.                                                 8             4                4

School Violence Resource Center
(University of Arkansas)                                       6             1                0

Inter-Tribal Integrated Justice Pilot Project
(University of Arkansas)                                       3             2                0

Development Services Group, Inc.                               9             1                0
Florida Atlantic University                                   15             9                3
Boys and Girls Clubs of America                               11             8                1
Constitutional Rights Foundation                               3             1                0
Children’s Advocacy Center for the Pikes
Peak Region                                                    5             2                0

Suffolk University                                             9             2                0
Children’s Hospital                                            7           12 5               0
Total                                                       106            43               10
 Source: Office of the Inspector General Grant Audit Reports

        23
             One of the four Progress Reports was submitted 170 days after the due date.

        24
           We concluded that at least three of the nine progress reports were filed late and it
is possible that the remaining six were also late. Because of the incomplete records on the
part of both the Fund and the OJP, we could not determine whether the filing of seven
reports on October 8, 2002, was the Fund’s first or second submission for these reports.

        25
         The untimely report was submitted 75 days late. Three other reports were not
date-stamped by the OJP; therefore, we could not determine the timeliness of their
submission.




                                            - 19 -
      In our judgment, the failure to enforce the timely and accurate
submission of FSRs and Progress Reports compromises the OJP’s ability to
ensure the proper use of grant funds, and increases the risk that the OJP will
fund projects that are ineffective or failing to meet their objectives. OJP can
help address this issue by providing grant managers with training about the
submission of timely and accurate reports, allowable costs, grant monitoring,
and grant closeout procedures.

       Another contributing factor to the weaknesses we identified is that
not all of the key elements for monitoring grant activity have been
implemented in OJP’s automated system for managing grants. The OJP’s
Grants Management System (GMS) was initiated in December 1998 as a
pilot program to streamline the solicitation, application, and award of
grants. If it functioned at its full capacity, the GMS should provide “one-
stop,” full life-cycle support for all of the OJP’s grant management efforts.
This, in turn, would improve efficiency of grant monitoring efforts, improve
access to information, and enhance search and reporting capabilities.
While the OJP has mandated that the GMS be used by its various
components, several of the modules of the GMS were not fully operational
during our audit period. At the beginning of our audit, we were told by OJP
officials that the GMS was being implemented in phases and that it would
be fully functional by the end of 2003. However, we were informed that
the enhanced GMS, which will include all modules to manage grants from
beginning to end, is not scheduled to fully operational until September 30,
2004. In our judgment, the OJP’s lack of systematic data to support grant
management monitoring efforts is attributable, in part, to the lack of full
GMS implementation.2 6

Recommendations:

       We recommend that the OJP ensure that:

1.     Grant managers receive annual training on OJP’s requirements
       governing the submission of timely and accurate reports, allowable
       costs, grant monitoring, and grant closeout procedures.

2.     The GMS is brought up to full functioning capaci ty as soon as possible
       and grant managers are trained to utilize this system.



       26
          In April 2004, grantees had the option of submitting their FSRs electronically
through the web-based SF 269 application. However, with the first reporting period in
FY 2005, all grantees are required to submit their FSRs electronically.




                                           - 20 -
      2.    PROGRAM PERFORMANCE

            The OJP is not collecting sufficient data to measure the
            performance of TA&T grants. Further, the OJP does not play a
            role in developing grantees’ performance or outcome measures
            for program evaluation purposes, nor does it have specific
            requirements that grantees must adhere to in developing
            performance measures. As a result, for the 21 grants that we
            audited, it was not possible to assess the impact of the TA&T
            program and determine whether the grants were achieving their
            intended purposes.

      According to the OJP, grant evaluation assesses the effectiveness of an
ongoing program in achieving its objectives, relies on the standards of
project design to distinguish a program's effects from those of other forces,
and seeks to improve programs through a modification of current
operations. Program evaluations are critical because they can be used to
improve existing programs and provide policymakers and program managers
with information for future program development. In addition, evaluations
are used to assess how well programs have been implemented, and the
extent to which funded activities have achieved their stated goals.

      Program evaluation is especially important to the Department of
Justice because, through the OJP, it administers over $6 billion in grants.
Without proper evaluation, the OJP cannot determine whether the grants it
awards are an appropriate use of Department funds. In addition, program
evaluations provide policymakers and managers with information about
which programs are successful and which programs are inefficient.

       The OJP is responsible for collecting data to report on performance
measures and for evaluating the performance of all programs. OJP officials
told us that in its solicitations, applicants are notified that they are required
to collect and report data that measures the results of their grant(s).
However, we found that for the 21 grantees audited, the OJP did not collect
and report the appropriate data to measure program results. Moreover, the
grant files we reviewed showed no indication that the OJP Grant Managers
participated in developing program measures.

Grantee Evaluation Methods

      We determined that the OJP relies on grantees’ semi-annual
categorical Progress Reports to determine if projects have been successful.
Although these reports give the OJP an outline of grantees’ activities,
productivity, and self-assessment, this method of evaluation may not


                                      - 21 -
produce definitive results. Moreover, grantees’ self-assessments cannot be
considered objective measures of accomplishment. In addition, agencies
that fund their own evaluations can be in the position to practice undue
influence that jeopardizes the objectivity of the findings. For example, an
agency funding an evaluation of itself may select an evaluator who is likely
to produce the results desired by the agency.

      Our review of 21 TA&T grants indicated that grantees generally
perform self-assessments through participant evaluations. For example,
some grantees conduct training for criminal justice practitioners addressing
new criminal justice issues. At the conclusion of the training, grantees might
request that participating practitioners complete an evaluation form to
assess the training. The grantee then compiles and summarizes the
information from all of the evaluation forms in an effort to measure the
success of the training provided. We consider this an insufficient form of
evaluation because there is no assurance that respondents will give this kind
of questionnaire more than cursory attention or provide candid responses.
In our judgment, in addition to the self-assessment, grantees should use
outside consultants (following the methodology described in the next
paragraph) to evaluate their presentations and provide specific commentary
to the grantees addressing how they could improve their training.

      We also determined that the OJP does not work with its grantees to
develop useful program evaluations. We asked the TA&T grantees in our
sample to respond to a questionnaire about program evaluation. Twenty of
the grantees stated that the OJP did not play a role in developing
performance or outcome measures after making the grant award. In
addition, we found that the OJP has no specific requirements to which the
grantee must adhere in developing performance measures. We believe this
lack of specific requirements results in the OJP having insufficient data to
measure program performance.

      In the 21 grants we audited, the OJP did not have the necessary
information to determine whether the program was successful in meeting its
intended purpose.2 7 When we discussed the OJP’s lack of a formal
evaluation of grantee success in implementing program objectives and goals,
we were told by senior BJA and OJJDP officials that OJP does not require
grant managers to formally evaluate the success or failure of a grant.
Instead, the officials said that the OJP relies solely on the Progress Reports,
even though the reports almost always indicate the grant is achieving its
stated objectives. Generally, grant managers review grant files before

      27
           See Appendices V and VI for grantee evaluation methods.




                                          - 22 -
grants are renewed, but no formal evaluation is prepared to support the
renewal of a grant, nor is such an evaluation required.

       Besides the evaluation methods listed by the grantees in response to
our questionnaire, our audit disclosed that three grantees hired outside
contractors to evaluate their grant programs. While independent evaluations
can be helpful without OJP’s participation the evaluation design and scope
may not be comprehensive. For example, the Boys and Girls Club requested
that program recipients evaluate the training provided to them through
surveys developed and evaluated by the Policy Studies Associates (PSA)
organization. This evaluation process was designed to collect data about
program implementation, the participants' experiences, and positive training
outcomes. The PSA used a combination of participant surveys, site visits,
and telephone interviews in its data collection efforts. While these methods
of evaluation can be useful in measuring program implementation and
participants’ experiences, they do not measure post-training impacts or
program outcomes. Had OJP collaborated with the grantee and PSA, a more
comprehensive evaluation could have been developed to measure these
outcomes.

The OJP’s Program Evaluation Efforts

      In an effort to develop an overall grant program evaluation system,
the OJP has sponsored a series of focus group meetings for Technical
Assistance (TA) recipients (e.g., individuals in state and local agencies, local
courts, community-based organizations, and the U.S. Attorney’s offices), TA
providers, and the OJP staff.2 8 The focus group participants identified
10 factors as obstacles to the effective delivery of TA:

       •    Limitations of time and resources;

       •    Lack of information about available TA and resources;

       •    Inability to select preferred type of TA, or to select individual TA
            providers;

       •    Lack of information about the particular situations in recipient
            jurisdictions, previous TA work projects, and available work
            products;

       28
          The themes and recommendations that emerged from this research are
documented in a report produced by the Justice Management Institute in Denver, Colorado,
entitled Improving the Effectiveness of Technical Assistance—A Report on Focus Group
Meetings of Criminal Justice Practitioners, Technical Assistance Providers, and OJP Staff.




                                          - 23 -
       •    Requirements of state sign-off for certain types of TA;

       •    Lack of mechanisms for accountability and feedback;

       •    Lack of commonly shared expectations regarding what constitutes
            effective TA;

       •    Lack of a research base about what constitutes effective TA;

       •    Lack of diversity in the pool of persons used as TA providers; and

       •    Limitations on the permissible scope of the OJP TA and categorical
            funding limitations.

       The OJP stated that it intends to improve its program evaluation
efforts. In testimony prepared for the House Judiciary Committee, the OJP’s
Principal Deputy Assistant Attorney General said that part of the OJP’s new
vision, “is an increased emphasis on measuring the results of the programs
we fund and on focusing OJP resources on what works.”2 9 The statement
went on to say that the OJP now requires evaluation components in all OJP
discretionary grant programs, and is setting aside 10 percent of program
funding to ensure evaluations are built into OJP programs from the outset.
Moreover, OJP discretionary grant recipients are now required, as part of
their grant conditions, to participate in a national or local program evaluation
so that the effectiveness of these programs will be measured. During our
review, we did not find evidence that these requirements had been
implemented. In fact, our audit disclosed that only three grantees hired
outside contractors to evaluate their grant programs (See Appendices V and
VI).

Recommendation:

       We recommend that the OJP:

3.     Develop performance or outcome measures for TA&T grants.




       29
          Statement of Tracy A. Henke, Principal Deputy Assistant Attorney General, Office
of Justice Programs, Before the Subcommittee On Crime, Committee on the Judiciary, U.S.
House of Representatives, Concerning Office of Justice Programs Oversight (March 14,
2002).




                                          - 24 -
               STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of the OJP’s Technical Assistance
and Training program, we evaluated the OJP’s management controls for the
purpose of determining our auditing procedures. This evaluation was not
made for the purpose of providing assurances on the management control
structure as a whole.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the management
control structure that, in our judgment, could adversely affect the OJP’s
ability to effectively manage its achievement of the Technical Assistance and
Training program. As discussed in the Findings and Recommendations
section of this report, for the 21 grants in our sample we identified
weaknesses in the monitoring of grants and in the development of adequate
performance measures to evaluate the accomplishments of the grants.

       Because we are not expressing an opi nion on the OJP’s management
control structure as a whole, this statement is intended solely for the
information and use of the OJP in managing its Technical Assistance and
Training grants. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                     - 25 -
    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

       We audited the OJP’s internal control measures to ensure accurate
financial reporting by grantees and the OJP’s monitoring and evaluation of
its technical assistance grantees.

      The audit covered selected grants from FYs 1995 through 2002 and
the OJP’s grant-monitoring activities through the first half of FY 2004. The
audit was conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

       Compliance with laws and regulations is the responsibility of the OJP’s
management. In connection with the audit and as required by the
Standards, we reviewed procedures, activities, and records to obtain
reasonable assurance about the OJP’s compliance with laws and regulations
that, if not complied with, we believe could have a material effect on
program operations.

      An audit includes examining, on a test basis, evidence about laws and
regulations. The specific requirements for which we conducted tests are
contained in the United States Code, Title 28, Section §66, and the OJP
Grant Managers Manual and OJP Financial Guide.

      Except for those issues discussed in the Findings and
Recommendations section in this report, nothing came to our attention that
causes us to believe that the OJP management was not in compliance with
the section of the United States Code cited above.




                                    - 26 -
                                                                             APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of our audit were to: (1) determine whether the Office
of Justice Programs (OJP) implemented internal control measures to ensure
accurate financial reporting by grantees, and (2) assess the OJP’s monitoring
and evaluation of grant objectives.

Scope and Methodology

      The audit was performed in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States, and
included tests and procedures necessary to accomplish the objective.

      Generally, the audit focused on the administrative activities and grant
management functions within the OJP’s Bureau of Justice Assistance (BJA),
Office of Juvenile Justice and Delinquency Prevention (OJJDP), Office of the
Comptroller (OC), and the Office of Budget and Management Services
(OBMS). We performed our fieldwork at the OJP headquarters in
Washington, D.C., and at 18 grantee locations throughout the country. 3 0

      To accomplish the audit objectives, we judgmentally selected
21 grants of $1 million or more for review. The total dollar amount of
these 21 grants was $77.7 million, or 25 percent of the $312.5 million in
TA&T grants awarded during various time periods between FY 1995 and
FY 2002.

      In addition, we conducted interviews with officials from the OJP,
including the Principal Deputy Assistant Attorney General and staff from
the BJA, the OJJDP, the OC, the OBMS, and the Office for Victims of Crime.
We also reviewed a wide variety of documents, including: the OJP’s
organizational structure and grant management guidance; the grant
management policies and procedures of the BJA, the OJJDP, and the OC;
and the OBMS’s budget and performance measurement processes.




      30
           We audited a total of 21 grants at these 18 sites. Two grantees received multiple
awards.




                                           - 27 -
The interviews and analyses of documents included:

     •   Reviewing prior audit reports and studies by the De partment of
         Justice and other agencies on related issues;

     •   Reviewing applicable laws, organization charts, mission statements,
         and program policies and procedures;

     •   Reviewing budgetary documents to determine the funds budgeted
         and expended for each fiscal year;

     •   Interviewing OJP component heads and officials to obtain an
         understanding of their operations;

     •   Reviewing organizational structures of the OJP and its Bureaus;

     •   Obtaining an understanding of the OJP’s grant management policies
         and procedures; and

     •   Assessing whether the OJP is effectively evaluating the Technical
         Assistance and Training Program.




                                   - 28 -
                                                                                                                                           APPENDIX II

                            SUMMARY OF DOLLAR-RELATED FINDINGS




                                                                                                       Excess Draw
                                           Unsupported




                                                                                 Unallowable




                                                                                                                                                       Entire Grant
                                                                  Unapproved
                             Questioned




                                                                                                                                                       Questioned
                                                                                                                     Transfers




                                                                                                                                 Program




                                                                                                                                            Imputed
                                                                                                                                            Interest
                                                                                                                                  Income
                                                                                                                      Excess
                                                                                                         Downs
                               Costs




                                              Costs




                                                                    Costs




                                                                                   Costs
                               Total
        Grantee

Search Group, Inc.
                              $29,60231              $25,000                                                                                 $4,602
National American Indian
Court Judges Association
                                 31,921                   3,439                        $28,482
Doe Fund, Inc.                   24,832                  24,832
Grantee’s name withheld
due to ongoing
investigation                 3,162,580                                                                                                                   $3,162,580
Florida Atlantic                199,221              198,221                                   1,000
University                      20,41932             20,419*
Boys & Girls Clubs of
America                      437,885                 362,434                             75,451
Children’s Advocacy
Center for the Pikes Peak
Region                           17,975                                                  17,975
Suffolk University               25,279                   9,691        $15,588
                                68,905*                                                                                          $68,905*
Children’s Hospital             351,484              260,986                                             $30,595       $59,903
Fox Valley Technical
College Missing
Children’s Assistance #1
                                777,090              629,627           147,463
Fox Valley Technical
College Missing
Children’s Assistance #2
                                 15,768                              15,354           414
                  TOTAL     $5,162,961     $1,534,649             $178,405       $123,322              $30,595       $59,903     $68,905    $4,602     $3,162,580

  Sources: Office of the Inspector General Grant Audits

* Funds to better use.




           31
          Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

           32
       Funds to Better Use are future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations.




                                                                               - 29 -
                                                                                APPENDIX III

                 TECHNICAL ASSISTANCE AND TRAINING GRANTS
                      SUMMARY OF AUDIT FINDINGS – BJA

                                                                                       Questioned
Grantee/Grant Number                                     Findings                        Costs
American Prosecutors’                                       N/A                           N/A
Research Institute
2000-PP-CX-K001

Search Group, Inc.               •   Unsupported disbursements                             $25,0003 3
1999-MU-MU-0005
                                 •   Imputed interest as a result of advances drawn
                                     down in excess of the funds necessary for                4,602
                                     immediate disbursement                                $ 29,602

                                 •   Did not receive prior approval for budget
                                     transfers exceeding 10 percent of the grant           N/A
                                     award

                                 •   Did not accurately report total spending on the       N/A
                                     FSRs
National Council of Juvenile &   •   Grantee did not submit all of its progress            N/A
Family Court Judges                  reports timely
98-MU-VX-K016

National American Indian         •   Unsupported other direct costs                         $     3,439
Court Judges Association
2000- IC-VX-0026                 •   Unallowable other direct costs                               1,608

                                 •   Unallowable personnel salaries                              15,812

                                 •   Unallowable fringe benefit costs                         11,062
                                                                                           $ 31,921

                                 •   Requests for draw downs were not in                   N/A
                                     accordance with the OJP Financial Guide

                                 •   Grantee did not submit all its Financial Status
                                     Reports and Progress Reports timely                   N/A
Fund for the City of New York    •   Three of the eighteen Financial Status Reports        N/A
98-DC-VX- K007                       were untimely

                                 •   Three of the nine Progress Reports were               N/A


           33
               Questioned costs are expenditures that do not comply with legal, regulatory, or
    contractual requirements, or are not supported by adequate documentation at the time of
    the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
    offset, waiver, recovery of funds, or the provision of supporting documentation.




                                                - 30 -
                                                                                       Questioned
Grantee/Grant Number                                     Findings                        Costs
                                    untimely

                                •   Grantee incorrectly budgeted certain costs             N/A
                                    related to compensated employee leave

                                •   Grantee did not ensure that its personnel and
                                    fringe benefit budgets complied with applicable
                                    laws, regulations, and guidelines

Doe Fund, Inc.                  •   Two of the seven Financial Status Reports were
2001-DD-BX-0055                     untimely                                               N/A

                                •   Three of the four Progress Reports were
                                    untimely
                                                                                           N/A

                                •   Internal controls over the authorization and
                                    approval of grant expenditures were
                                    inadequate                                             N/A

                                •   Grantee did not provide support for 9 of the 53
                                    sampled expenditures charged to the                $    24,832
                                    agreement

Grantee’s name withheld due     •   Numerous findings. The entire grant is being
to ongoing investigation.           questioned pending the outcome of an OIG
                                    investigation                                      $ 3,162,580

Strategic Information           •   Grantee did not maintain complete and
Technology Center                   accurate inventory records for the property
(University of Arkansas)            purchased with grant funds                             N/A
1999-LD-VX-0001
School Violence Resource        •   One of the six Progress Reports due since the
Center (University of               inception of the grant was submitted late              N/A
Arkansas)
2000-DD-VX-0026                 •   Early in the grant the grantee erroneously
                                    reported indirect costs on a cumulative basis          N/A

                                 • Grantee did not maintain complete and
Inter-Tribal Integrated Justice Pilot
Pilot Project                         accurate inventory records for the property
(University Of Arkansas)              purchased with grant funds                           N/A
2001-LD-BX-K005
                                 • Two of the three Progress Reports due since
                                      the inception of the grant were submitted late       N/A


TOTAL – BJA                                                                            $ 3,248,935




                                                - 31 -
                                                                             APPENDIX IV

                TECHNICAL ASSISTANCE AND TRAINING GRANTS
                    SUMMARY OF AUDIT FINDINGS – OJJDP


                                                                                        Questioned
  Grantee/Grant Number                              Findings                              Costs

National Center for Missing                            N/A                                 N/A
and Exploited Children
2000-MC-CX-K021
Development Services Group,    •   Grantee did not submit all of its Financial             N/A
Inc. 1999-JB-VX- K001              Status Reports and Progress Reports timely
Florida Atlantic University    •   Unsupported costs for program income
95-JN-FX-0024                      received by the grantee                                 $ 24,920 3 4

                               •   Unsupported costs reimbursed for sample
                                   expenditures tested that were not supported
                                   by documentation                                            166,071

                               •   Unsupported indirect costs                                    7,230

                               •   Unallowable costs reimbursed for sample
                                   expenditures tested that were not approved
                                   by the financial clearance memorandum                       1,000
                                                                                           $ 199,221
                               •   Unsupported costs reimbursed in excess of
                                   expenditures recorded in the grantee’s
                                   accounting records but subsequently returned             (FBU3 5 )
                                   to the OJP and placed in the grantee’s account          $ 20,419

                               •   Grantee failed to submit all Progress Reports           N/A
                                   timely

                               •   Grantee’s quarterly Financial Status Reports
                                   did not identify and report all program income          N/A
                                   generated by the grant

                               •   Grantee failed to retain all supporting
                                   documentation for grant expenditures until              N/A
                                   after the grant was closed


          34
             Questioned costs are expenditures that do not comply with legal, regulatory, or
   contractual requirements, or are not supported by adequate documentation at the time of
   the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
   offset, waiver, recovery of funds, or the provision of supporting documentation.

          35
          Funds to Better Use are future funds that could be used more efficiently if
   management took actions to implement and complete audit recommendations.




                                             - 32 -
                                                                                         Questioned
  Grantee/Grant Number                                 Findings                            Costs


                                 •   Grantee failed to ensure that sub-grantees
                                     complied with all requirements of OMB
                                     Circular A-133                                         N/A
Boys and Girls Clubs of          •   Unsupported costs reimbursed for professional
America                              services contracts for which the grantee could
98-JN-FX-0007                        not provide copies of the contracts                    $     55,054

                                 •   Unsupported costs reimbursed in excess of
                                     expenditures recorded in the grantee’s
                                     general ledger accounting records                            27,923

                                 •   Unsupported costs reimbursed that were not
                                     supported by invoices or other detailed
                                     documentation                                              279,457

                                 •   Unallowable costs reimbursed that were either
                                     not approved by the OJP or were higher than
                                     the amount approved by the OJP                               20,000

                                 •   Unallowable costs reimbursed for categories
                                     not approved by the OJP                                    55,451
                                                                                            $ 437,885
                                 •   Grantee failed to submit Progress Reports for
                                     the period January to June 1998
                                                                                            N/A
                                 •   Grantee did not properly identify accountable
                                     property acquired with grant funds or ensure
                                     that such property was used only for grant
                                     purposes
                                                                                            N/A
Constitutional Rights            •   Grantee filed one Progress Report 32 days
Foundation                           beyond the submission due date                         N/A
2001-JS-FX-008
National Court Appointed                                  N/A                               N/A
Special Advocate Association
2002-CH-BX-K001

Children’s Advocacy Center for   •   Unallowable other direct costs                         $      1,798
the Pikes Peak Region
2001-MU-MU-K002                  •   Unallowable personnel costs                                  14,915

                                 •   Unallowable fringe benefits                               1,262
                                                                                            $ 17,975
                                 •   Grantee submitted inaccurate Financial Status
                                     Reports                                                N/A

                                 •   Grantee failed to submit all its Financial Status
                                     Reports and Progress Reports timely                    N/A



                                                - 33 -
                                                                                     Questioned
  Grantee/Grant Number                               Findings                          Costs

Suffolk University              •   Two of the 18 Financial Status Reports were
1999-JS-FX-0001                     not submitted timely                                 N/A

                                •   Two of the 9 Progress Reports were not
                                    submitted timely                                     N/A

                                •   Grantee did not provide adequate support for
                                    9 of the 40 sampled expenditures charged to
                                    the agreement                                        $      9,691

                                •   Salary expenses for a part-time clinical
                                    supervisor were not approved in the initial
                                    grant budget                                         $ 15,588
                                                                                         $ 25,279
                                •   Program income was not used to reduce
                                    future draw downs or returned to the federal
                                    government                                      (FBU) $ 68,905
Children’s Hospital             •   Excess transfers into budget categories              $ 59,903
2000-CI-FX-K001
                                •   Excess funds drawn down                                    30,595

                                •   Unsupported personnel costs                            260,986
                                                                                         $351,484
                                •   Grantee did not ensure that grant-funded
                                    personnel would properly report the time
                                    worked on grant activities                           N/A

                                •   Grantee submitted Financial Status Reports
                                    that did not accurately reflect expenses and         N/A
                                    program income
Fox Valley Technical College    •   Unsupported salaries                                 $ 629,627
Missing Children’s Assistance
#1                              •   Unapproved wages and fringe benefits                       23,272
98-MC-CX-K010
                                •   Unapproved budget transfers                            124,191
                                                                                         $777,090
                                •   Grantee transferred more than 10 percent of
                                    grant funds between budget categories
                                    without obtaining prior OJP approval                 N/A

                                •   Grantee failed to add all grant-funded
                                    equipment to the College’s inventory database
                                    and to perform physical inventories of such
                                    equipment at least once every two years              N/A




                                              - 34 -
                                                                                    Questioned
  Grantee/Grant Number                               Findings                         Costs

Fox Valley Technical College    •   Unapproved overtime wages                         $         8,455
Missing Children’s Assistance
#2                              •   Unapproved overtime fringe benefits                         1,545
98-MC-CX-K003
                                •   Unapproved equipment purchases                              5,354

                                •   Non-grant-related labor costs                              414
                                                                                      $     15,768
                                •   Grantee failed to add all grant-funded
                                    equipment to the College’s inventory database
                                    and to perform physical inventories of such           N/A
                                    equipment at least once every two years

                                    •   Questioned costs                             $1,824,702

TOTAL – OJJDP                       •   Funds to better use                              89,324
                                                                                     $1,914,026




                                              - 35 -
                                                                                          APPENDIX V

                 TECHNICAL ASSISTANCE AND TRAINING GRANTS
                  SUMMARY OF PERFORMANCE MEASURES – BJA

                                                                                                 Based on
                                                                                                    the
                                                                                                grantee’s
                                                                                                evaluation
                                                                                               method, can
                                                                                                  the OJP
                                                                                                 measure
                                                                                                 program
                                                                                               performance
                      Purpose of Grant                             Evaluation Method            or impact?
American Prosecutors’ Research Institute (APRI)
2000-PP-CX-K001
Provided grantees (who planned, implemented, and               Conducted surveys and           No 3 6
enhanced community prosecution programs), access to            provided evaluation forms to
APRI support, expert guidance, and information in order to     recipients.
be successful in developing and implementing a more
comprehensive criminal justice concept that fit their
individual jurisdictions. Between January 14, 2000, and
September 26, 2001, the OJP awarded the grantee a total
of $2,061,559.
Search Group, Inc.
1999-MU-MU-0005
Assis ted courts in upgrading existing systems and in          Provided surveys to             No
developing integrated systems with other courts and            recipients to obtain feedback
justice system agencies, as well as developing peer-to-        as to whether the technical
peer support relationships among state court and justice       assistance was useful.
system management information system (MIS) managers
and directors. In addition, the grant allowed for a
comprehensive program of technical assistance to aid non-
automated courts. As of February 15, 2001, the grantee
was awarded a total of $2,500,000 to provide technical
assistance to improve the general level of knowledge and
understanding of court information system management.
National Council of Juvenile & Family Court Judges
98-MU-VX-K016
Provided training and technical assistance for jurisdictions   Provided evaluation forms to    No
that were developing, improving, or enhancing juvenile         trainees to determine
drug courts. As of September 30, 2001, the grantee was         whether the training was
awarded a total of $2,904,655 to equip jurisdictions with      useful. Provided recipients
the knowledge and skills to strengthen their efforts in        with surveys to rate the
providing effective treatment to juveniles by promoting        technical assistance.
the abilities and potential of the child, encouraging
abstinence, and reducing recidivism.
National American Indian Court Judges Association
2000-IC-VX-0026
Established an online resource for tribes by identifying and   Program recipients were         No
developing online tools and resources for daily support        given the opportunity to

          36
            We concluded that the OJP does not collect sufficient information from the
  grantees to measure program performance or program impact.




                                                   - 36 -
                                                                                              Based on
                                                                                                 the
                                                                                             grantee’s
                                                                                             evaluation
                                                                                            method, can
                                                                                               the OJP
                                                                                              measure
                                                                                              program
                                                                                            performance
                    Purpose of Grant                             Evaluation Method           or impact?
and technical assistance for tribal justice systems.        evaluate the technical
Between March 2000 and September 2003, the grantee          assistance or training
was awarded a total of $1,442,112 to implement and          services. Grantee will make
enhance online technical assistance.                        changes to program based
                                                            on evaluation results.
Fund for the City of New York
98-DC-VX-K007
Provided training and technical assistance to Drug Court                                    No
                                                            Individual training program
Grant Program recipients and to the drug court field in
                                                            evaluation forms were
general. Between September 1998 and February 2002,
                                                            completed on-site by
the grantee was awarded a total of $1,839,269 to host
                                                            participants. Staff reviewed
roundtable forums, develop and conduct educational
                                                            and summarized comments
courses, create and distribute printed material and
                                                            and calculated average
publications, develop an Internet website, assist in
                                                            evaluation scores.
developing drug court MIS, and conduct site visits at the
Brooklyn Treatment Court.
Doe Fund, Inc.
2001-DD-BX-0055
Provided the paid work and job skills training portion of   Grantee received                No
the Ready, Willing, and Able program to: 1) increase        feedback/evaluation from
literacy, office, and computer skills of participants, 2)   program users through
reduce drug use, 3) increase employment of participants,    monthly meetings held at
and 4) eliminate barriers to legal employment. Between      housing facilities. Also, the
July 1, 2001, and June 30, 2003, the grantee was            residents can anonymously
awarded a total of $1,897,800.                              note concerns through a
                                                            recommendation box located
                                                            within the facility.
Grantee’s name withheld due to ongoing investigation.
Provided financial support, as well as training and       Contra cted with a consultant     No
technical assistance to community groups nationwide so    to provide an evaluation of
that they would become more involved in crime prevention the project. Occasionally
activities. Between April 5, 2000, and May 31, 2002, the  solicited feedback from a
grantee was awarded an initial grant and three            narrow population of training
supplementals totaling $3,162,580. Using about $1.7       conference attendees.
million of those funds, the grantee entered into
agreements with 36 sub-grantees across the country; the
agreements ranged in value from $10,000 to $30,000 per
year.
Strategic Information Technology Center (University of Arkansas)
1999-LD-VX-0001
Created and established the Strategic Information         The grantee conducted a           No
Technology Center (Center). The Center contained two      User Satisfaction Survey
primary tracks: a Rural Law Enforcement Technical         during 2001. The survey was
Assistance Enhancement Project, designed to provide rural done online and the results
law enforcement agencies with access to electronic        were maintained in a
resources, databases, and the Internet; and Project       database so the information
PATHFINDER, designed to create a strategic information    could be accessed and/or
technology plan to meet the nationally recognized lack of queried at any time.



                                                 - 37 -
                                                                                             Based on
                                                                                                the
                                                                                            grantee’s
                                                                                            evaluation
                                                                                           method, can
                                                                                              the OJP
                                                                                             measure
                                                                                             program
                                                                                           performance
                    Purpose of Grant                              Evaluation Method         or impact?
easy, guided access to centralized and categorized
information, education, and technical assistance to all
units of government.
School Violence Resource Center (University of Arkansas)
2000-DD-VX-0026
Provided training and technical assistance to educators,     Grantee had an evaluation     No
law enforcement, local government, and community             form for workshops that
service organizations for developing strategies that         participants were
addressed school violence issues. As of September 15,        encouraged to complete.
2003, the grantee was awarded a total of $3,995,600 to       The grantee also had a web-
implement a web-based national school violence resource      based survey form used to
center, produce school violence-related publications, and    collect information on law
hold focus groups, advisory meetings, and workshops.         enforcement school-based
                                                             programs.
Inter-Tribal Integrated Justice Pilot Project (University Of Arkansas)
2001-LD-BX-K005
Provided technical assistance and training to the Navajo     There was no formal           No
Nation, Hopi Tribe, and Pueblo of Zuni justice agencies to   evaluation method in place.
promote more effective sharing of information within the
tribes. As of September 15, 2003, the grantee was
awarded a total of $1,562,900 to establish an information
technology infrastructure that would facilitate inter-tribal
integration and provide training necessary to encourage
the use of information systems and support sustainability.




                                                 - 38 -
                                                                                        APPENDIX VI

                 TECHNICAL ASSISTANCE AND TRAINING GRANTS
                 SUMMARY OF PERFORMANCE MEASURES – OJJDP

                                                                                                  Based on
                                                                                                     the
                                                                                                 grantee’s
                                                                                                 evaluation
                                                                                                method, can
                                                                                                  the OJP
                                                                                                  measure
                                                                                                  program
                                                                                                performance
                      Purpose of Grant                            Evaluation Method              or impact?
National Center for Missing and Exploited Children
2000-MC-CX-K021
Developed standards for School Resource Officers (SRO)        All course participants were      No 3 7
and developed and conducted SRO training nationwide.          required to turn in a
Between June 26, 2000, and August 14, 2002, the grantee       completed evaluation form in
was awarded a total of $10,993,363, of which Fox Valley       order to receive a certificate.
Technical College was authorized to receive $8,411,398 as     Results were tabulated and
a single-source provider.                                     summarized.
Development Services Group, Inc.
1999-JB-VX-K001
Provided technical assistance and training to states and      Participants were asked to        No
units of local government with funds to develop programs      complete evaluation forms at
to pro mote greater accountability in the juvenile justice    the end of each session or
system. From November 1, 1998, to June 30, 2003, the          day, depending on the
OJP awarded the grantee a total of $5,377,201.                training.
Florida Atlantic University
95-JN-FX-0024
Provided assistance to juvenile justice systems wishing to:   Only verbal evaluations took      No 3 8
1) expand and enhance restitution and related restorative     place at the roundtables;
sanctioning programs and practices, 2) use these              thus the grantee’s staff
programs and practices as a catalyst for broader changes      evaluated progress of each
in juvenile justice sanctioning and supervision practices,    state participating in the
and 3) redesign or restructure their community                roundtables based on oral
supervision systems based on a Balanced Approach              reports and supplemental
mission within a Restorative Justice conceptual framework     materials provided in
(BARJ). As of September 30, 2003, the grantee was             advance and at the
awarded a total of $2,018,869 to provide training and         roundtable meetings. In
technical assistance to states and local jurisdictions        addition, outside contractors
wishing to implement to BARJ model.                           were hired to evaluate the


          37
            We concluded that the OJP does not collect sufficient information from the
  grantees to measure program performance or program impact.

          38
             However, one of the objectives listed in a subsequent grant application related to
  the development of performance measures and a performance measurement methodology
  to be utilized by juvenile justice systems nationwide to determine the impact of balanced
  and restorative justice. The subsequent grant was awarded under a new project number,
  2002-JI-BX-0002 on August 2003, but had not been implemented when we performed on
  audit.




                                                  - 39 -
                                                                                                 Based on
                                                                                                    the
                                                                                                grantee’s
                                                                                                evaluation
                                                                                               method, can
                                                                                                 the OJP
                                                                                                 measure
                                                                                                 program
                                                                                               performance
                    Purpose of Grant                                Evaluation Method           or impact?
                                                               proje ct.
Boys and Girls Clubs of America (BGCA)
98-JN-FX-0007
Built upon the existing efforts of the BGCA and the Taco       The program recipients were     No
Bell Foundation to provide educational, recreational, and      given the opportunity to
community service activities through current                   evaluate the training
TEENSupreme Centers operated nationwide by local               provided to them through
BGCAs. As of August 31, 2003, the grantee was awarded          surveys. The survey forms
a total of $9,275,000 to provide a comprehensive array of      were provided and evaluated
career preparation services to youth, ages 13 to 18, with a    by Policy Studies Associates
special emphasis on job preparedness, placement, and           (PSA), the company
follow-up support services for 16 to 18 year-old club          contracted to perform
members.                                                       evaluations of the
                                                               TEENSupreme program. In
                                                               addition, outside contractors
                                                               were hired to evaluate the
                                                               program.
Constitutional Rights Foundation
2001-JS-FX-008
To teach young people about the law so that they can lead      Individual training program     No
successful lives within the confines of the law. As of         evaluation forms were
July 10, 2002, the grantee was awarded a total of              completed on-site by
$1,066,400 to strengthen successful models in 49 states,       participants and collected by
the District of Columbia, and Puerto Rico, that link the Law   staff. Staff reviewed and
Related Education with violence prevention.                    summarized comments and
                                                               made changes to the
                                                               program accordingly.
National Court Appointed Special Advocate Association
2002-CH-BX-K001
Supported the grantee in providing training and technical  Individual training program         No
assistance to its network of local programs across the     evaluation forms were
nation. As of April 2, 2002, the grantee was awarded a     completed on-site by
total of $3,823,500 to promote and enhance the highest     participants and collected by
possible volunteer representation of children by           staff.
establishing methods and measures of consistency,
quality, and cultural sensitivity in the management of
Court Appointed Special Advocate/Guardian ad Litem
(CASA/GAL) programs.
Children’s Advocacy Center for the Pikes Peak Region
2001-MU-MU-K002
Assisted communities in establishing and strengthening     The grantee used two basic          No
children’s advocacy centers and multi-disciplinary teams   types of evaluation forms to
to address the needs of child victims of abuse. Between    evaluate training. The
December 2000, and February 2003, the grantee was          individual forms were
awarded a total of $1,124,343 to provide training and      reviewed and a consolidated
technical assistance to communities in the western region. form was prepared. The
                                                           results were reviewed to
                                                           assess the quality of services



                                                   - 40 -
                                                                                                Based on
                                                                                                   the
                                                                                               grantee’s
                                                                                               evaluation
                                                                                              method, can
                                                                                                the OJP
                                                                                                measure
                                                                                                program
                                                                                              performance
                     Purpose of Grant                             Evaluation Method            or impact?
                                                             provided and adjustments
                                                             were made to the training
                                                             program as necessary.
                                                             There was no method for
                                                             evaluating the technical
                                                             assistance.

Suffolk University
1999-JS-FX-0001
                                                             The grantee provided             No
To improve legal services for juveniles in three targeted
                                                             training recipients with the
communities and to prevent at-risk juveniles from getting    opportunity to evaluate the
into legal difficulties. Between December 31, 1998, and
                                                             training programs; however,
August 14, 2002, the grantee was awarded a total of          the grantee did not retain
$5,060,685.
                                                             the evaluations from
                                                             participants in the clinical
                                                             program. The legal
                                                             assistance provided to the
                                                             juveniles was not evaluated.
Children’s Hospital
2000-CI-FX-K001
To increase the number of facility-based, multi-disciplinary Program attendees at             No
children’s advocacy centers in the Midwest for the           training and technical
purposes of providing coordinated, non-traumatizing          assistance events were
services to children and families that are victims of child  requested to fill out
abuse and neglect, and to strengthen existing services       evaluation forms. The
through local, state, regional, and national collaboration.  results were compiled for
As of March 19, 2003, the grantee had been awarded a         each event.
total of $1,286,115 to provide technical assistance and
training to improve services available in the Midwest to
child victims of physical and sexual abuse and neglect.
Fox Valley Technical College Missing Children’s Assistance #1
98-MC-CX-K010
                                                             The grantee provided an          No
Provided training and technical assistance to professionals evaluation form to each
involved in the management or investigatio n of cases
                                                             participant attending
involving missing or exploited children. Between
                                                             regional training or receiving
September 30, 1998, and August 27, 2002, the grantee         technical assistance. Most
was awarded an initial grant and four supplements totaling
                                                             participants filled out and
$7,263,359.                                                  returned the forms. Grantee
                                                             officials and the OJP read the
                                                             evaluations and acted upon
                                                             them if possible, including
                                                             suggestions for improving or
                                                             expanding the material
                                                             covered.




                                                  - 41 -
                                                                                             Based on
                                                                                                the
                                                                                            grantee’s
                                                                                            evaluation
                                                                                           method, can
                                                                                             the OJP
                                                                                             measure
                                                                                             program
                                                                                           performance
                     Purpose of Grant                          Evaluation Method            or impact?
Fox Valley Technical College Missing Children’s Assistance #2
98-MC-CX-K003
                                                          The grantee provided an          No
Provided training and technical assistance to individuals evaluation form to each
and organizations involved in aiding and responding to
                                                          participant attending
missing and exploited children and their families. As of
                                                          regional training or receiving
April 2, 2002, the grantee was awarded a total of         technical assistance. Most
$2,298,701 to train state and local law enforcement
                                                          participants filled out and
officers through a training course entitled Responding to returned the forms. Grantee
Missing and Abducted Children.
                                                          officials and the OJP read the
                                                          evaluations and acted upon
                                                          them if possible, including
                                                          suggestions for improving or
                                                          expanding the material
                                                          covered.




                                                - 42 -
                                                               APPENDIX VII

       DESCRIPTIONS OF THE OFFICE OF JUSTICE PROGRAMS’
       BUREAUS, PROGRAM OFFICES, AND SUPPORT OFFICES

                                  BUREAUS

Bureau of Justice Assistance (BJA). Established by the Omnibus Crime
Control & Safe Streets Act of 1968 § 401, the BJA provides funding, training,
and technical assistance to state and local governments to combat violence
and drug-related crime, and to help improve the criminal justice system.
This bureau now includes the former Drug Courts Program Office and the
former Corrections Program Office.

Bureau of Justice Statistics (BJS). Established by the Omnibus Crime
Control & Safe Streets Act of 1968 § 302, the BJS collects and analyzes
statistical data on crime and the operations of justice systems at all levels of
government. It also provides financial and technical support to state
governments in developing their capabilities in criminal justice statistics,
improving criminal history records, and implementing crime identification
technology systems.

National Institute of Justice (NIJ). Established by the Omnibus Crime
Control & Safe Streets Act of 1968 § 202, the NIJ supports research and
development programs, conducts demonstrations of innovative approaches
to improve criminal justice, develops and tests new criminal justice
technologies, evaluates the effectiveness of justice programs, and
disseminates research findi ngs to practitioners and policymakers. The NIJ
also provides primary support for the National Criminal Justice Reference
Service, a clearinghouse of criminal justice-related publications, articles,
videotapes, and online information.

Office of Juvenile Justice and Delinquency Prevention (OJJDP).
Established by the Juvenile Justice & Delinquency Prevention Act of 1974 §
201, the OJJDP provides award funding to improve juvenile justice systems
and sponsors innovative research, demonstration, evaluation, statistics, and
technical assistance and training programs to improve the nation’s
understanding of and response to juvenile violence and delinquency.

Office for Victims of Crime (OVC). Established by the Victims of Crime
Act of 1984 § 1411, the OVC provides funding to states to support programs
that provide direct assistance to crime victims and compensate them for
medical and other unreimbursed expenses resulting from violent crimes.
The OVC also sponsors training for state, and local criminal justice officials


                                     - 43 -
and other professionals to help improve their response to crime victims and
their families.

                             PROGRAM OFFICES

Office of the Police Corps and Law Enforcement Education (OPCLEE).
The OPCLEE was created by the Violent Crime Control and Law Enforcement
Act of 1994, but was first established in the Office of Community Oriented
Policing Services (COPS). In 1998, the OPCLEE was transferred to the OJP.
OPCLEE provides educational assistance to college students who commit to
public service, and to dependent children of officers killed in the line of duty.

Community Capacity Development Office (CCDO). Established in 2004
by the OJP, the CCDO assists communities by empowering them to solve
local problems through crime prevention, increasing community safety, and
revitalizing neighborhoods. The CCDO also includes the Office of Weed and
Seed and the American Indian and Alaskan Native Affairs Desk.

                             SUPPORT OFFICES

Office for Civil Rights (OCR). The OCR is responsible for ensuring that
recipients of financial assistance from OJP, its component organizations, and
the BJA are not engaged in prohibited forms of discrimination. The OCR
ensures that potential and existing grantees fully comply with all civil rights
laws and regulations so that needed federal assistance may commence or
continue.

Office of General Counsel (OGC). The OGC provides legal advice and
guidance to the OJP and its component bureaus.

Office of Communications (OCOM). The OCOM is a key point of contact
for the OJP. Its primary responsibilities include working with congressional
members, committees, and their staff on legislation, policies, and issues
affecting the OJP and its Bureaus and Program offices. The OCOM also
apprises Congress, the criminal justice community, the news media, and the
public about OJP activities, through such means as tracking legislation;
managing correspondence; maintaining a portfolio of speeches and
testimony given by OJP and other Department of Justice officials; and by
preparing briefing books and papers for congressional hearings, and other
reports.

Office of the Chief Information Officer. This support office provides
automated systems development and support and network integration for
the OJP.


                                     - 44 -
Office of Management and Administration. This support office oversees
(1) the Office of Administration (except the Information Resources
Management Division); (2) the Office of Budget and Management Services;
(3) the Office of the Comptroller; and (4) the Equal Employment Opportunity
Office.

Office of Administration (OA). The OA serves as the principal advisor to
the Assistant Attorney General for OJP on matters involving human
resources recruitment and management; labor relations; contracting and
procurement; property and space management; and the maintenance,
safety, and security of facilities.

Office of Budget and Management Services (OBMS). The OBMS
directs, coordinates, and prepares the OJP's annual budget requests to
Congress, the Office of Management and Budget, and the Department of
Justice. Following annual appropriations, the OBMS allocates and tracks all
OJP funds, maintaining control of agency obligations, including grants,
payments, agreements, and contracts. In addition, the OBMS works with
the OJP bureaus and offices to implement the National Performance Review,
the Federal Managers' Financial Integrity Act, the Government Performance
and Results Act, as well as other initiatives. Through its Executive
Secretariat Staff, the OBMS also manages OJP's correspondence control
system and provides advice and assistance to OJP components.

Office of the Comptroller (OC). The OC is the principal advisor to the
Assistant Attorney General for the OJP on matters involving fiscal policy
guidance and control. The OC also supports accounting, financial and grants
management, and claims collection services. The OC is comprised of four
divisions responsible for providing support services for the offices and
bureaus that comprise OJP. The four divisions are the: (1) Financial
Management Division, (2) Accounting Division, (3) Monitoring Division, and
(4) Training and Policy Division.

Equal Employment Opportunity Office (EEO). The EEO office is
responsible for ensuring that the OJP provides equal employment
opportunity for all employees and applicants on the basis of merit and
without regard to race, color, religion, sex, age, national origin, sexual
orientation, and physical or mental disability.




                                     - 45 -
                                                               APPENDIX VIII

                DESCRIPTIONS OF MAJOR GRANTS AWARDED
                  BY THE OFFICE OF JUSTICE PROGRAMS

                                      BUREAUS

BUREAU OF JUSTICE ASSISTANCE (BJA)

Public Safety Officers' Benefits Program. The purpose of this program
is to provide a death benefit to: (1) eligible survivors of federal, state or
local public safety officers whose death is the direct and proximate result of
a persona l (traumatic) injury sustained in the line of duty, and (2) public
safety officers who have been permanently and totally disabled as the direct
result of a catastrophic personal injury sustained in the line of duty.

Emergency Federal Law Enforcement Assistance. The purpose of this
program is to provide necessary assistance to a state government in order to
allow for an adequate response to an uncommon situation which requires
law enforcement, which is or threatens to become of serious or epidemic
proportions, and with respect to which state and local resources are
inadequate to protect the lives and property of citizens, or to enforce the
criminal law.

Federal Surplus Property Transfer Program. The purpose of this
program is to transfer or convey to state and local governments and
territories, at no cost, surplus real and related personal property determined
by the Attorney General to be required for correctional facility or law
enforcement use for programs or projects for the care or rehabilitation of
criminal offenders, as approved by the Attorney General.

Byrne Formula Grant Program. The purpose of this program is to reduce
and prevent illegal drug activity, crime, and violence and to improve the
functioning of the criminal justice system.

Edward Byrne Memorial State and Local Law Enforcement Assistance
Discretionary Grants Program (Discretionary Drug and Criminal
Justice Assistance Program). The purpose of this program is to provide
leadership and direction in controlling the use and availability of illegal drugs
and to improve the functioning of the criminal justice system, with emphasis
on violent crime and serious offenders.

Local Law Enforcement Block Grants Program. The purpose of this
program is to provide funds to units of local government for the purposes of


                                     - 46 -
reducing crime and improving public safety. Funds may be used for one or
more of seven program purpose areas. Funds or a portion thereof may also
be used to contract with private, non-profit entities or community-based
organizations to carry out the purposes of this Block Grants Program. BJA
will also make awards to states based on the allocation formula specified in
the applicable legislation.

Motor Vehicle Theft Protection Act Program (Watch Your Car). The
purpose of this program is to develop, in cooperation with the states, a
national voluntary motor vehicle theft prevention program. The national
"Watch Your Car" program is designed as a cooperative initiative between
the states, local governments, and the U.S. Department of Justice, Bureau of
Justice Assistance. It allows owners of motor vehicles to voluntarily display
a decal or device on their vehicles to alert police that their vehicle is not
normally driven between the hours of 1:00 a.m. and 5:00 a.m. Motorists
may also choose to display another decal or device to signify their vehicle is
not normally driven across or in the proximity of international land borders
or ports.

State Identification Systems (SIS) Grant Program. The purpose of this
program is to provide federal assistance to states to establish, develop,
update, or upgrade: (1) computerized identification systems that are
compatible and integrated with the database of the FBI’s National Crime
Information Center (NCIC); (2) the capability to analyze DNA in a forensic
laboratory in ways that are compatible with the FBI’s combined DNA
Identification Systems (CODIS); and (3) automated fingerprint identification
systems that are compatible and integrated with the FBI’s Integrated
Automation Fingerprint Identification System (IAFIS).

State Criminal Alien Assistance Program (SCAAP). The purpose of this
program is to provide federal assistance to states and units of local
government incurring costs of incarcerating illegal aliens convicted of one
felony or two misdemeanor offenses and to expedite the transfer of custody
for certain deportable aliens.

The Bulletproof Vest Partnership Program. The purpose of this program
is to protect the lives of law enforcement officers by helping state, local, and
tribal law enforcement agencies provide officers with armored vests.

Tribal Court Assistance Program. The purpose of this program is to
assist tribal governments in the development, enhancement, and continuing
operation of tribal judicial systems, including inter-tribal court systems.




                                     - 47 -
Planning, Implementing, and Enhancing Strategies in Community
Prosecution. The purpose of this program is to emphasize the participation
of community leaders and residents in developing strategies for public safety
with prosecutors and other community justice system officials. The program
serves as a mechanism for community participation that allows communities
to identify local priorities and engage in problem solving and strategic
planning, as well as regular communication between the prosecutor's office
and community residents. In addition, the program helps develop a
proactive orientation to crime control, emphasizing prevention and
enforcement.

Regional Information Sharing Systems Grants (RISS). The purpose of
this program is to enhance the ability of the state and local criminal justice
agencies to identify, target, and remove criminal conspiracies and activities
that span jurisdictional boundaries. The first objective of the RISS is to
encourage and facilitate the rapid exchange and sharing of information
among federal, state, and local law enforcement agencies pertaining to
known or suspected criminals or criminal activity. The second objective is to
enhance coordination and communication among agencies that are in pursuit
of criminal conspiracies determined to be inter-jurisdictional in nature. In
addition, the RISS Program may provide technical and financial resources,
such as specialized equipment, training, and investigative funds, to augment
existing multi-jurisdictional enforcement resources and operations.

Closed-Circuit Televising of Child Victims of Abuse (CCTV). The
purpose of this program is to provide equipment and personnel training for
the closed-circuit televising and videotaping of the testimony of children in
criminal proceedings for the violation of laws relating to the abuse of
children.

National White Collar Crime Center (NWCCC). The purpose of this
program is to provide a nationwide support system for the prevention,
investigation, and prosecution of economic crime. The NWCCC links criminal
justice agencies across jurisdictional borders and bridges the gap between
local and state criminal justice agency economic crime-fighting capabilities
and the minimum threshold for federal investigation and intervention. The
NWCCC provides support for the prevention, investigation, and prosecution
of economic crime through a combination of research, training, and
investigative support services. The NWCCC also hosts the National Cyber
crime Training partnership, which provides training to state and local law
enforcement and prosecutorial agencies in how to respond successfully to
computer-related crime.




                                    - 48 -
Scams Targeting the Elderly. The purpose of this program is to reduce
the incidence of fraud and abuse against the elderly through Technical
Assistance and Training programs, demonstration sites, public awareness
initiatives, and reporting of fraud to the National Fraud Information Center.

State and Local Anti-Terrorism Training (SLATT). The purpose of this
program is to provide delivery of specialized, multiagency anti-terrorism
preparedness training. This training, along with related research, law
enforcement intelligence, operational issues development, and technical
assistance support activities, is delivered to state and local law enforcement
and prosecution authorities. While state and local law enforcement
preparation and readiness issues addressed in this project are tailored to
interventions in domestic terrorism, major portions of the program's
preparedness and operational readiness outcomes are equally applicable to
any terrorist threat or incident, whether domestically or internationally
inspired.

Public Safety Officers' Educational Assistance (PSOEA). The purpose
of this program is to provide financial assistance for higher education to the
spouses and children of public safety officers killed in the line of duty or who
received permanent and totally disabling injuries that occurred on or after
October 1, 1997.

BJA - DRUG COURTS PROGRAM OFFICE (DCPO)3 9

Drug Court Discretionary Grant Program (Drug Court Program). The
purpose of this program is to support the establishment and development of
drug courts, including those that give special attention to alcohol and drug
problems, for example, driving under the influence or driving while
intoxicated.

BJA - CORRECTIONS PROGRAM OFFICE (CPO)

Violent Offender Incarceration and Truth in Sentencing Incentive
Grants (Prison Grants). The purpose of this program is to provide funds
to individual states and to states organized as regional compacts to build or
expand: (1) correctional facilities to increase the bed capacity for the
confinement of violent offenders; (2) temporary or permanent correctional
facilities including facilities on military bases, prison barges and boot camps
for the confinement of non-violent offenders for the purpose of freeing
prison space for violent offenders; and (3) jails.

      39
           Under the recent reorganization of the OJP, this office was moved under the BJA.




                                           - 49 -
Residential Substance Abuse Treatment for State Prisoners (RSAT).
The purpose of this program is to assist states and units of local government
in developing and implementing residential substance abuse treatment
programs within state and local correctional facilities in which prisoners are
incarcerated for a period of time sufficient to permit substance abuse
treatment.

Prevention, Diagnosis, and Treatment of Tuberculosis in Correctional
Institutions. The purpose of this program is to assist states, units of local
government, and Indian tribal authorities in establishing and operating
programs for the prevention, diagnosis, treatment, and follow-up care of
tuberculosis among inmates of correctional institutions.

Correctional Grant Program for Indian Tribes. The purpose of this
program is to assist Indian tribes with the construction of jails on tribal lands
for the incarceration of offenders subject to tribal jurisdiction.

OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION
(OJJDP)

Juvenile Accountability Incentive Block Grants Program (JAIBG).
The purpose of this program is to: (1) provide funds to develop programs to
promote greater accountability in the juvenile justice system, (2) survey the
field and identify projects that would benefit from research, demonstration,
and evaluation in the 12 purpose areas identified in the JAIBG Program, and
(3) provide Technical Assistance and Training to states and units of local
government so they may develop programs outlined in the 12 program
areas to promote greater accountability in the juvenile justice system.

Juvenile Justice and Delinquency Prevention - Allocation to States.
The purpose of this program is to increase the capacity of state and local
governments to support the development of more effective education,
training, research, prevention, diversion, treatment, accountability-based
sanctions, and rehabilitation programs in the area of juvenile delinquency
and programs to improve the juvenile justice system.

Juvenile Justice and Delinquency Prevention - Special Emphasis
(Program Grants and Discretionary Grants). The purpose of this
program is to develop and implement programs that design, test, and
demonstrate effective approaches, techniques and methods for preventing
and controlling juvenile delinquency, such as: community-based
alternatives to institutional confinement; developing and implementing
effective means of diverting juveniles from the traditional juvenile justice
system; programs stressing advocacy activities aimed at improving services


                                     - 50 -
to youth impacted by the juvenile justice system; model programs to
strengthen and maintain the family unit including self-help programs;
prevention and treatment programs relating to juveniles who commit serious
crimes; programs to prevent hate crimes; programs to provide aftercare and
reintegration services; and programs to prevent youth gun and gang
violence.

National Institute for Juvenile Justice and Delinquency Prevention.
The purpose of this program is to encourage, coordinate, and conduct
research and evaluation of juvenile justice and delinquency prevention
activities; to provide for public and private agencies, institutions, justice
system agencies, a clearinghouse and information center for collecting,
disseminating, publishing, and distributing information on juvenile
delinquency; to conduct national training programs of juvenile related
issues, and provide technical assistance and training to federal, state, and
local governments, courts, corrections, law enforcement, probation, public
and private agencies, institutions, and individuals, in the planning,
establishment, funding, operation, or evaluation of juvenile delinquency
programs.

Missing Children's Assistance. The purpose of this program is to:
(1) coordinate and support federal activities concerning research, training,
technical assistance, and demonstration programs to enhance the overall
response to missing and exploited children and their families; and
(2) establish and maintain a national resource center and clearinghouse
dedicated to issues concerning missing and exploited children; (3) conduct
national incidence studies to determine the type and extent of missing
children in America; (4) support law enforcement demonstration programs
(for example, the Internet Crimes Against Children Task Force Program) to
enhance the investigative response to cases concerning missing and
exploited children; (5) support research to broaden understanding of a wide
range of issues concerning missing and exploited children (for example,
abduction homicide investigation solvability factors), and to inform Technical
Assistance and Training efforts and identify promising practices and
programs for replication; (6) develop training programs for law enforcement,
child protective services, medical personnel, and prosecutors to enhance
coordination and effectiveness of investigations concerning missing and
exploited children, and to enhance the overall system response; (7) identify
service gaps and develop programs to meet specialized needs of parents or
guardians of children who are reported missing; (8) provide a national
central registry and toll-free hotline service to assist community
organizations and law enforcement personnel to identify and return adults
suffering from Alzheimer’s disease who have wandered from home; and
(9) provide training, technical assistance, and publications to enhance


                                     - 51 -
community-wide responses to wandering incidents by memory-impaired
adults.

Gang-Free Schools and Communities – Community-Based Gang
Intervention. The purpose of this program is to: (1) prevent and to
reduce the participation of juveniles in the activities of gangs who commit
crimes; (2) develop within the juvenile adjudicator and correctional systems
new and innovative means to address the problems of juveniles convicted of
serious drug-related and gang-related offenses; (3) provide treatment to
juveniles who are members of such gangs, including those members who are
accused of committing a serious crime and who have been adjudicated as
being delinquent; (4) promote the involvement of juveniles in lawful
activities in geographical areas in which gangs commit crimes; (5) promote
and support, with the cooperation of community-based organizations
experienced in providing services to juveniles engaged in gang-related
activities and cooperation of local law enforcement agencies, the
development of policies and activities in public elementary and secondary
schools which will assist such schools in maintaining a safe environment
conducive to learning; (6) assist juveniles who are, or may become,
members of gangs to obtain appropriate educational instruction, in or
outside a regular school program, including the provision of counseling and
other services to promote and support the continued participation of such
juveniles in such instructional programs; (7) expand the availability of
prevention and treatment services relating to the illegal use of controlled
substances and controlled substances analogues by juveniles, provided
through state and local health and social services agencies; (8) provide
services to prevent juveniles from coming into contact with the juvenile
justice system again as a result of gang-related activity; (9) provide services
at a special location in a school or housing project; and (10) facilitate
coordination and cooperation among local education, juvenile justice,
employment, and social service agencies; and community-based programs
with a proven record of effectively providing intervention services to juvenile
gang members for the purpose of reducing their participation in illegal gang
activities.

Victims of Child Abuse. The purpose of this program is to: (1) develop
model technical assistance and training programs to improve the courts'
handling of child abuse and neglect cases; (2) facilitate the adoption of laws
to protect children against the potential second assault of the courtroom
proceeding; (3) address the present situation in which many states have
adopted innovative procedures that have far outpaced federal law, leaving
those children who do enter the federal system inadequately protected;
(4) address the incons istency and disparity among state laws on child abuse;
(5) train criminal justice system personnel on up-to-date, innovative


                                    - 52 -
techniques for investigating and prosecuting child abuse cases; (6) promote
a multidisciplinary approach to coordinating the investigations and
prosecution of child abuse cases and, thereby, limiting the number of pre-
trial interviews a child must go through as well as better assure the accuracy
of each interview; and (7) increase the number of communities making use
of a Children's Advocacy Center approach to the investigation, prosecution
and treatment of child abuse cases.

Title V Delinquency Prevention Program. The purpose of this program
is to increase the capacity of state and local governments to support the
development of more effective prevention programs to improve the juvenile
justice system through risk and protective factor-focused programming
approach.

Part E State Challenge Activities (Challenge Grants). The purpose of
this program is to provide incentives for states participating in the Formula
Grants Program to develop, adopt, and approve policies and programs in one
or more of 10 specified challenge activities to improve the state's juvenile
justice system.

Juvenile Mentoring Program (JUMP). The purpose of this program is to
reduce juvenile delinquency and gang participation, improve academic
performance, and reduce the dropout rate through the use of mentors for
at-risk youth.

Enforcing Underage Drinking Laws Program. The purpose of this
program is to support and enhance efforts by states, in cooperation with
local jurisdictions, to enforce underage drinking by prohibiting the sale or
consumption of alcoholic beverages by minors.

Drug Prevention Program. The purpose of this program is to reduce drug
use by encouraging the promotion of multiple approaches including
replicating the Life Skills Training (drug prevention) program, and educating
and motivating adolescents to pursue healthy lifestyles and fostering
interpersonal and decision-making skills, which will help them choose
alternatives to high risk behaviors.

Drug-Free Communities Support Program Grants. The purpose of this
program is to: (1) increase the capacity of community coalitions to reduce
substance abuse among youth, and over time, to reduce substance abuse
among adults through strengthening collaboration among communities, and
public and private entities; and (2) disseminate state-of-the-art information
on practices and initiatives that have proven to be effective in reducing
substance abuse among youth.


                                     - 53 -
Reduction and Prevention of Children's Exposure to Violence (Safe
Start). The purpose of this program is to develop a demonstration initiative
to prevent and reduce the impact of family and community violence on
young children (primarily from birth to six years of age) by helping
communities to expand existing partnerships between service providers
(such as law enforcement, mental health, health, early childhood education
and others) to create a comprehensive service delivery system.

Tribal Youth Program. The purpose of this program is to support and
enhance tribal efforts for comprehensive delinquency prevention, control,
and juvenile justice system improvement for Native American youth.

National Evaluation of the Safe Schools - Healthy Student Initiative.
The purpose of this program is to conduct an evaluation of the Safe
Schools/Healthy Students Initiative.

BUREAU OF JUSTICE STATISTICS (BJS)

State Justice Statistics Program for Statistical Analysis Centers
(SACs). The purpose of this program is to provide financial and technical
assistance to state governments for the establishment and operation of
Statistical Analysis Centers (SACs) to collect, analyze, and disseminate
justice statistics.

National Criminal History Improvement Program (NCHIP). The
purpose of this program is to: (1) enhance the quality and completeness of
the nation's criminal history record systems; (2) provide financial and
technical assistance to states for the establishment or improvement of
computerized criminal history record systems, and in their efforts to collect
data on stalking and domestic violence; (3) improve data accessibility and
support data transmissions to the national system, which will permit the
immediate identification of persons who are prohibited from purchasing
firearms, are subject to domestic violence protective orders, or are ineligible
to hold positions of responsibility involving children, the elderly, or the
disabled; (4) support the development of accurate and complete state sex
offender identification and registration systems which interface with the
FBI's Sex Offender Registry and meet applicable federal and state
requirements; (5) develop and improve the processes for identifying,
classifying, collecting, and entering data regarding stalking and domestic
violence into local, state, and national crime information databases; and
(6) ensure that criminal justice systems are designed, implemented or
upgraded to be compliant, where applicable, with the FBI-operated National
Instant Criminal Background Check System, and the Interstate Automated
Fingerprint Identification System; meet other applicable statewide or


                                    - 54 -
regional criminal justice information sharing standards and plans; and build
upon ongoing efforts to support the wide range of technology-based,
criminal justice information, identification, and communications needs
identified by the states.

National Incident Based Reporting System (NIBRS). The purpose of
this program is to allow state and local jurisdictions to capture detailed
offense, offender, victim, property, and arrest information. NIBRS moves
beyond aggregate statistics and raw counts of crimes and arrests that
comprise the summary Uniform Crime Reports program to individual records
for each reported crime incident and its associated arrest.

NATIONAL INSTITUTE OF JUSTICE (NIJ)

Justice Research, Evaluation, and Development Project Grants. The
purpose of this program is to encourage and support research, development,
and evaluation in order to further understanding of the causes and correlates
of crime and violence, the methods of crime prevention and control, and the
criminal justice system responses to crime and violence, and to contribute to
the improvement of the criminal justice system and its responses to crime,
violence, and delinquency.

National Institute of Justice Visiting Fellowships. The purpose of this
program is to provide opportunities for experienced criminal justice
practitioners and researchers to pursue projects aimed at improved
understanding of crime, delinquency, and criminal justice administration by
sponsoring research projects of their own creation and design.

Criminal Justice Research and Development - Graduate Research
Fellowship Program. The purpose of this program is to improve the
quality and quantity of knowledge about crime and the criminal justice
system, while, at the same time, to help increase the number of persons
who are qualified to teach in collegiate criminal justice programs, conduct
research related to criminal justice issues, and perform more effectively
within the criminal justice system.

Corrections and Law Enforcement Family Support. The purpose of this
program is to: (1) research the effects of stress on law enforcement and
correctional personnel and their families and disseminate the findings;
(2) identify and evaluate model programs that provide support services to
law enforcement correctional personnel and their families; (3) provide
technical assistance and training programs to develop stress reduction and
family support programs to state and local law enforcement and correctional
agencies; (4) collect and disseminate information regarding family support,


                                    - 55 -
stress reduction, and psychological services to state and local law
enforcement and correctional organizations and other interested parties; and
(5) determine issues to be researched by the Department of Justice and
grant recipients.

Crime Laboratory Improvement-Combined Offender DNA Index
System Backlog Reduction. The purpose of this program is to increase
the capabilities and capacity of state and local crime laboratories in the
United States to conduct state-of- the-art forensic evidence testing and to
reduce the backlog of convicted offender DNA samples.

National Institute of Justice Domestic Anti-Terrorism Technology
Development Program. The purpose of this program is to support the
development of counter-terrorism technologies, assist in the development of
standards for those technologies, and work with state and local jurisdictions
to identify particular areas of vulnerability to terrorist acts, and to be better
prepared to respond if such acts occur.

OFFICE FOR VICTIMS OF CRIME (OVC)

Crime Victim Assistance. The purpose of this program is to provide
compensation and assistance to: (1) residents, who while outside of the
U.S. become a victim of a terrorist act or mass violence; (2) eligible state
programs to provide emergency relief, including crisis response efforts,
training, and technical assistance for the benefit of victims of terrorist acts
or mass violence occurring within the United States; and (3) U.S. Attorney's
Offices for use in coordination with state victim-compensation and assistance
efforts in providing emergency relief.

Crime Victim Compensation. The purpose of this program is to provide
funds to states for awards of compensation benefits to crime victims.

Crime Victim Assistance/Discretionary Grants. The purpose of this
program is to provide funds for: (1) demonstration projects and technical
assistance and training services to eligible crime-victims assistance
programs; (2) financial support of services to victims of federal crime by
eligible crime-victim assistance programs; and (3) other support following
cases of terrorism or mass violence.

Children's Justice Act Discretionary Grants for Native Americans
(Children's Justice Act Partnership for Native American Indian
Tribes). The purpose of this program is to assist tribes in developing,
establishing, and operating programs designed to improve the handling of
child abuse cases, particularly cases of child sexual abuse, in a manner


                                     - 56 -
which limits additional trauma to the child and improves the investigation
and prosecution of cases of child abuse.

                             PROGRAM OFFICES

OFFICE OF THE POLICE CORPS AND LAW ENFORCEMENT EDUCATION
(OPCLEE)

Police Corps and Law Enforcement Officers Training and Education.
The purpose of this program is to address violent crime by increasing the
number of police with advanced education assigned to community patrol in
areas of great need, and to provide educational assistance to students who
possess a sincere interest in public service through law enforcement and to
law enforcement personnel. This program also offers no-obligation college
scholarships to children of law enforcement officers killed in the line of duty.

   •   The Training for Juvenile Detention Center Care-Givers Project
       provides detention centerline personnel with training specific to their
       needs. New curriculum materials are being developed along with a
       Desktop Guide to Detention. The project is available through OJJDP.

Multi-jurisdictional Initiatives, Task Forces, and Complex Financial
Investigations. These categories include a variety of grant programs.

   •   The Multi-Agency Response Training Project supports the
       Organized Crime/ Narcotics program, Financial Investigation
       (FINVEST) projects, and multi-agency task forces funded at the state
       and local levels. Regional training is available through the BJA.

   •   Since 1994, Multi-jurisdictional Weed and Seed Sites have been
       allowed to apply for discretionary grant funding. Multi-jurisdictional
       sites contain multiple target neighborhoods or areas located in two or
       more jurisdictions.

   •   Asset Forfeiture Training for Prosecutors and Financial
       Investigators facilitates the effective implementation of state
       forfeiture statutes. Forfeiture ethics, policy, and management are
       addressed. Although training courses are no longer available, state
       and local agencies may obtain copies of a model curriculum and video
       from the BJA to be used to conduct training within states.




                                     - 57 -
Research, Evaluation, Information Systems, and Technology. These
categories also include a variety of grant programs.

  •   The BJA-State Reporting and Evaluation Program provides
      technical assistance and training on the performance, monitoring,
      assessment, and evaluation of state criminal justice programs.

  •   The Operational Systems Support Training and Technical
      Assistance Program strives to improve general knowledge and
      understanding of criminal justice information management, while
      enhancing the effectiveness and efficiency of state and local
      practitioners through technology. The (SEARCH Group) National
      Criminal Justice Computer Laboratory and Training Center conducts in-
      house, hands -on training, as well as regional outreach training
      throughout the United States. The services are available through the
      BJA.

  •   The OJJDP's Technical Assistance Support Program for state
      agencies implementing the Part B Formula Grants Program makes
      technical assistance available to states in developing their research,
      training, and evaluation capacity.

  •   The NIJ National Law Enforcement and Corrections Technology
      Center in Rockville, MD, provides criminal justice professionals with
      information on available technology, on guidelines/standards for these
      technologies, and technical assistance in implementing these
      technologies. The center compiles and computerizes information on
      which manufacturers are producing law-enforcement related products
      and what those products are; what equipment law enforcement
      agencies are using; and which agencies have special equipment or
      expertise that can be utilized on an as-needed basis. This program is
      expanding dramatically under the Technology Information Network
      (TIN) which will link this center to the regional centers in Rome, NY;
      Charleston, SC; Denver, CO; El Segundo, CA; and the Border Research
      and Technology Center in San Diego, CA.

      The NIJ Office of Law Enforcement Commercialization (OLETC) at the
      National Technology Transfer Center (NTTC) in Wheeling, WV, is
      focused on making affordable, useful technologies for law
      enforcement. At present, the NTTC is moving technologies out of the
      federal and national laboratories to nationwide industry for
      development and manufacture. The OLETC allows industries
      interested in entering the law enforcement market to access
      technologies developed by the Departments of Defense, Energy, and


                                    - 58 -
      other federal research and development agencies and facilitates the
      transfer of other technologies to industry for law enforcement.

      The NIJ Office of Law Enforcement Standards (OLES) at the National
      Institute of Standards and Technology in Gaithersburg, MD, develops
      performance standards for law-enforcement related equipment. Law
      enforcement at every level, but especially at the state and local level,
      look to this program to provide the standards and testing information
      they need to make wise equipment investments.

COMMUNITY CAPACITY DEVELOPMENT OFFICE (CCDO)

CCDO - Weed and Seed Program. 4 0 The purpose of this program is to
implement nationwide a comprehensive, multi-disciplinary approach to
combating violent crime, drug use, and gang activity in high crime
neighborhoods. The goal is to "weed out" violence and drug activity in such
neighborhoods, and then to "seed" the sites with a wide range of crime and
drug prevention programs, human service resources, and neighborhood
restoration activities to prevent crime from recurring. The strategy
emphasizes the importance of a coordinated approach, bringing together
federal, state and local government, the community, and the private sector
to form a partnership to create a safe, drug-free environment.




      40
        The Weed and Seed Program was placed under the new Community Capacity
Development Office as part of the recent reorganization of the OJP.




                                     - 59 -
                                                       APPENDIX IX


             ACRONYMS AND ABBREVIATIONS


BJA      Bureau of Justice Assistance
BJS      Bureau of Justice Statistics
CCDO     Community Capacity Development Office
CG       Comptroller General of the United States
EOWS     Executive Office for Weed and Seed
FSR      Financial Status Report
FBU      Funds to Better Use
GAO      Government Accountability Office
GAS      Government Auditing Standards
GPRA     Government Performance and Results Act
GMM      Grant Manager’s Memorandum
GMS      Grants Management System
MB       Monitoring Branch, OC
NIJ      National Institute of Justice
OCR      Office for Civil Rights
OVC      Office for Victims of Crime
OBMS     Office of Budget and Management Services
OCOM     Office of Communications
OIG      Office of the Inspector General
OJP      Office of Justice Programs
OJJDP    Office of Juvenile Justice and Delinquency Prevention
OMA      Office of Management and Administration
OCIO     Office of the Chief Information Officer
OC       Office of the Comptroller
OGC      Office of the General Counsel
OPCLEE   Office of the Police Corps and Law Enforcement Education
PR       Progress Report
QC       Questioned Cost
QRB      Quality Review Branch, OC
TA & T   Technical Assistance and Training Program




                             - 60 -
                                                                  APPENDIX X


                  OFFICE OF JUSTICE PROGRAMS
       TECHNICAL ASSISTANCE AND TRAINING GRANTS AUDITED
                              BJA

                                                      Audit Report
                    Grants                         Number          Dated

American Prosecutors’ Research Institute          GR-30-04-001        01/20/04
(APRI) 2000-PP-CX-K001

Search Group, Inc. 1999-MU-MU-0005                GR-90-04-001        12/23/03

National Council of Juvenile & Family Court       GR-90-04-003        01/30/04
Judges 98-MU-VX-K016

National American Indian Court Judges             GR-60-04-001        12/23/03
Association 2000-IC-VX-0026

Fund for the City of New York                     GR-70-04-002        01/09/04
98-DC-VX-K007

Doe Fund, Inc. 2001-DD-BX-0055                    GR-70-04-001        11/26/03

Strategic Information Technology Center Project   GR-80-04-005        01/20/04
(University of Arkansas) 1999-LD-VX-0001

School Violence Resource Center (University of    GR-80-04-004        01/20/04
Arkansas) 2000-DD-VX-0026

Inter-Tribal Integrated Justice Pilot Project     GR-80-04-003        01/20/04
(University of Arkansas) 2001-LD-BX-K005
Grantee’s name withheld due to ongoing             To be issued
investigation




                                         - 61 -
                                                                 APPENDIX XI

                 OFFICE OF JUSTICE PROGRAMS
      TECHNICAL ASSISTANCE AND TRAINING GRANTS AUDITED
                            OJJDP

                                                      Audit Report
                    Grants                         Number          Dated

National Center for Missing and Exploited         GR-30-04-002      01/20/04
Children 2000-MC-CX-K021

Development Services Group, Inc.                  GR-30-04-003      03/31/04
1999-JB-VX-K001

Florida Atlantic University - 95-JN-FX-0024       GR-40-04-004      02/19/04

Boys and Girls Clubs of America (BGCA), Inc.      GR-40-04-005      03/25/04
98-JN-FX-0007

Constitutional Rights Foundation                  GR-90-04-002      12/23/03
2001-JS-FX-008

National Court Appointed Special Advocate         GR-90-04-004      01/30/04
Association -2002-CH-BX-K001

Children’s Advocacy Center for the Pikes Peak     GR-60-04-002      12/30/03
Region - 2001-MU-MU-K002

Suffolk University - 1999-JS-FX-0001              GR-70-04-003      01/21/04

Children’s Hospital - 2000-CI-FX-K001             GR-50-04-005      05/13/04

Fox Valley Technical College Missing Children’s   GR-50-04-001      12/02/03
Assistance #1 - 98-MC-CX-K010

Fox Valley Technical College Missing Children’s   GR-50-04-002      12/02/03
Assistance #2 - 98-MC-CX-K003




                                        - 62 -
                                                                           APPENDIX XII

            ADDITIONAL DETAILS ON GRANT -MONITORING ACTIVITIES

Monitoring by the Office of the Comptroller

       The OC annually develops a risk-based monitoring plan that considers
inherent programmatic and recipient risks.4 1 The OC applies the risk-based
criteria to the universe of grants to develop a sample for each fiscal year’s
monitoring plan. The reviews conducted include both on-site and in-house
work. According to OJP officials, the purpose of the in-house reviews is to
provide as much of a comprehensive financial review as possible without
going on-site.

      The OC’s Monitoring Division is comprised of two branches that
conduct financial monitoring of grantees, provide on-site technical assistance
to grantees and program offices, conduct audit follow-up, and perform
reviews of the OJP financial administration and controls.

       •    The Quality Review Branch (QRB) conducts internal OJP and
            external grantee audit follow-up. As the OJP’s Audit Liaison, the
            QRB coordinates Single Audit Act findings and recommendations on
            a Department wide basis. The QRB also: coordinates with the
            Office of Management and Budget (OMB) and other federal agencies
            in developing, modifying, and implementing government-wide
            audit-related rules and regulations; and, conducts internal quality
            control-based reviews to provide assurance that the OJP’s assets
            are safeguarded and its financial management system conforms to
            government-wide internal control requirements under the Federal
            Managers Financial Integrity Act and the Chief Financial Officers
            Act.

       •    The Monitoring Branch (MB) provides external financial oversight of
            award recipients’ financial operations through risk-based financial
            monitoring. The staff conducts nationwide on-site financial reviews
            of grantee organizations to assess financial systems and records,
            provides financial advice, and recommends changes in the grantee’s
            financial policies and procedures.

       41
          Risk-based criteria include: grants with confidential funds; grants to Indian tribes;
OJP discretionary grants of $1 million; new grantees with discretionary grants; Local Law
Enforcement Block Grants; randomly sampled grants; and, one-third of the formula/block
grants. The OC excludes from its sample any grantee organizations that were subject to its
other on-site financial monitoring, or to audit by the OIG during the last two years.




                                            - 63 -
          The MB also performs in-house reviews of various program and
          financial documents contained in the official grant files. These
          reviews are conducted to ensure that the official grant file is
          complete and the grant application, review, and award processes
          were properly conducted. The collective results are then available
          for analysis to identify activities within the OJP that can be
          improved.

       The OC maintains the official grant files and is responsible for tracking
the receipt of all grant documents. The OC receives the Progress Reports,
files the original in the official grant file, and forwards a copy to the relevant
bureau. The grant manager is responsible for the timely acceptance, review,
and analysis of Progress Reports.

Monitoring by the Bureaus and Program Offices

      The five bureaus and two program offices are also responsible for
monitoring grantees and related activities, and documenting the results in
the grant manager’s program files and the OC’s official grant files. The
bureaus and program offices conduct monitoring to ensure:

      •   Compliance with relevant statutes, regulations, policies, and
          guidelines;

      •   Responsible oversight of awarded funds;

      •   Implementation of required programs, goals, objectives, tasks,
          products, timelines, and schedules;

      •   Identification of issues and problems that may impede grant
          implementation; and

      •   Adjustments required by the grantee as approved by the OJJDP and
          the BJA.

      The grant managers’ primary responsibility is project monitoring. Each
grant manager prepares a monitoring plan or Grant Manager’s Memorandum
(GMM). The GMM is an evolving document used throughout the life of a
grant to ensure that goals and objectives are being met and that activities
and products are completed in a timely fashion. The level of monitoring
required is based upon the stated monitoring plan in the GMM, which
includes:

      •   An overview of the project;


                                      - 64 -
      •   A detailed description of what type of activities the grantee plans to
          implement;

      •   A discussion of past monitoring activities and assessments, if the
          grant is a multi-year grant that is awarded yearly;

      •   An identification of monitoring activities to be performed for the
          current project period; and

      •   A discussion of the financial justification for the grant funds and of
          the cost-effectiveness evaluation of the application.

       The OJP has given monitoring priority to sites in which problems have
been ident ified, implementation has been problematic, or where the grantee
has specifically requested technical or other assistance. In addition to on-
site visits, grant managers conduct periodic desk reviews and monitor grants
telephonically. Monitoring may also be conducted as part of conferences and
cluster meetings with grantees.

       Telephonic and/or e-mail monitoring is done to communicate time-
sensitive information, or when on-site visits are not feasible. The Grant
Manager compiles a list of issues and familiarizes him or herself with the
objectives of the grant. The Grant Manager then arranges a scheduling of
calls to project and grantee staff to document and resolve issues and/or
assess the implementation status of a project, according to stated objectives
and time lines.

Frequency of Monitoring

      Federal grant management entails both program management and
financial management. For the TA&T grants that we reviewed, these
responsibilities were split between the OC, which is responsible for financial
management, and the respective bureaus, which are responsible for
program management. According to the OJP grant managers whom we
interviewed, all grants are monitored to “some degree.”

      The number of times a grant manager conducts an on-site visit is
determined by each bureau or program office and depends on problems
encountered during the course of the grant, budget resources, and level of
grant activity. The OJP’s past practice, however, has encouraged grant
managers to conduct one monitoring visit per fiscal year, if time and
resources permit, and to require quarterly telephone conversations and desk
monitoring activities. Each grant manager establishes a monitoring


                                      - 65 -
schedule, which permits him or her to add issue-driven monitoring visits and
technical assistance, if the need arises. The OJP management and grant
managers stated that they attempt to identify projects that appear to need
the most assistance (for example, grantees that have not previously
received an OJP grant, and new planning grants) and prioritize travel
schedules to include these sites.




                                   - 66 -
                   APPENDIX XIII

GRANTEE RESPONSE




   - 67 -
- 68 -
- 69 -
- 70 -
- 71 -
- 72 -
- 73 -
- 74 -
- 75 -
- 76 -
- 77 -
- 78 -
                                                              APPENDIX XIV


       OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
         ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
                      TO CLOSE THE REPORT


      The OJP’s response to the audit (Appendix XIII) describes the actions
taken or plans for implement ing our recommendations. This appendix
summarizes our response and the actions necessary to close the report . In
addition to responding to the recommendations, the OJP provided additional
comments in their response to which we wish to respond.

       The OJP states that the GMS system has been in widespread use since
January 2003. We clarified our report to state that while the OJP has
mandated that the GMS be used by its various components, several of the
GMS modules were not fully operational during our audit period. Two
examples of essential reports used by OJP to monitor a grantees progress
that were not fully operational in the GMS during our audit period were the
Progress Report and Financial Status Report (SF 269). The Progress Report
Module was implemented in January 2004, but several grantees did not
utilize the GMS to submit Progress Reports because they had grants that
were awarded prior to the initial implementation of the GMS. Utilization of
the SF 269 module to report actual grant expenditures quarterly will not be
required until FY 2005.

Recommendation number:

1.   Resolved. The OJP stated that it is committed to providing the
     training necessary to ensure that grant managers are adequately
     equipped to administer grants. Beginning in October 2004, the Office
     of the Comptroller (OC) will conduct a series of training sessions for all
     grant managers that will include topics such as grantee reporting,
     allowable costs, monitoring, and grant closeout.

     The BJA indicated that its monitoring system has been revamped and
     improved significantly. The BJA Monitoring Guide has been revised
     and updated and outlines a new monitoring protocol. An automated
     risk assessment tool, known as the Priority Monitoring Assessment, is
     currently being developed and will identify key factors associated with
     the performance and program compliance of a specific grantee and
     grant program.



                                    - 79 -
     The BJA also plans to train all BJA staff and managers on these
     performance requirements and protocols in early FY 2005. The
     training will cover topics such as the BJA monitoring documentation
     policies, roles and responsibilities of BJA staff relative to monitoring,
     monitoring plan development, and risk assessment.

     In August 2002, the OJJDP developed protocols and standard forms for
     grant administration. These protocols and standard forms are now
     being used by OJJDP staff. In the past year, the OJJDP implemented
     the practice of sending new staff to professional grant monitoring
     training. This training covers all aspects of grant monitoring. The
     OJJDP will also assess whether there are other staff members who
     have not attended the monitoring classes and who would benefit from
     this training.

     The OJJDP also stated that it is committed to providing financial
     training to all grant managers and will require all of its grant managers
     to attend financial training that the OC will provide in FY 2005.

     This recommendation can be closed when the OJP provides the OIG
     with the following documentation:

           •   The OC’s schedules and agendas for its grant managers
               training sessions.

           •   The BJA’s performance requirements and protocol training
               schedules and agendas for its grant managers and staff.

           •   The OJJDP’s training needs assessment along with the
               projected plan and schedule for providing such training.

2.   Resolved. The OJP stated that the functionalities within GMS have
     increased dramatically over the last year, in particular the peer review,
     grant monitoring, progress reporting and sub-grant reporting. The
     OJP is streamlining several grant business processes that have not
     been automated in the GMS. The OJP expects the following modules
     to be completed by the end of FY 2005: Grant Adjustment Notices,
     Close Out, External User Administration, Financial Monitoring, and
     Payment Request Support Subsystem. As part of implementation
     protocol for the deployment of new GMS modules, grant managers will
     receive appropriate training to utilize the system.

     This recommendation can be closed when the OJP provides the OIG
     with documentation showing its schedule for completing and


                                    - 80 -
     implementing the remaining GMS modules and that grant managers
     are trained to utilize this system.

3.   Resolved. The OJP stated that performance measures have been
     required in every grant award since January 2002 and that the
     development of performance measures for all grants is an ongoing OJP
     initiative. As part of its efforts, on September 23, 2004, the OJP
     sponsored in-house training on performance measures that was
     facilitated by the United States Department of Agriculture Graduate
     School. The objective of the training was to help OJP staff understand
     the requirements of the Office of Management and Budget’s June 2003
     guidance, Performance Measurement Challenges and Strategies.

     In coordination with the OJP’s Office of Budget and Management
     Services (OBMS) and the Institute for Law and Justice, the BJA is
     developing performance measures for all BJA grants. Performance
     measures were formally adopted for all competitively funded grants
     beginning with the FY 2003 awards.

     The BJA has instituted a training workshop on measuring performance
     for the five BJA regional conferences for grantees that are scheduled in
     late FY 2004 and early FY 2005. Topics covered in this workshop will
     include GPRA, Outcome Measure, and the Program Assessment Rating
     Tool. The training will concentrate on outcome measures.

     In coordination with the OBMS and Caliber Associates, the OJJDP is
     developing a standardized performance measurement system.
     Performance measures will be included in all OJJDP grants awarded in
     FY 2005. OJJDP’s staff will be trained to monitor the performance
     measures by the end of FY 2005. The OJJDP indicated that it will work
     with the training and technical assistance providers to set up
     mechanisms to evaluate the effectiveness of services, such as
     participant surveys and post follow-up services. These mechanisms will
     require conditions of all grant awards.

     This recommendation can be closed when the OJP provides the OIG
     with performance or outcome measures for TA&T grants.




                                   - 81 -
